<html>
<title> - RECENT U.S. NAVY INCIDENTS AT SEA</title>
<body><pre>[Senate Hearing 115-733]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 115-733

                   RECENT U.S. NAVY INCIDENTS AT SEA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2017

                               __________

         Printed for the use of the Committee on Armed Services

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                 Available via http://www.govinfo.gov/

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-896 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------




                      COMMITTEE ON ARMED SERVICES

 JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director 

                                  (ii)

  
                         C O N T E N T S

_________________________________________________________________

                           September 19, 2017

                                                                   Page

Recent U.S. Navy Incidents at Sea................................     1

Spencer, Hon. Richard V., Secretary of the Navy..................     4
Richardson, Admiral John M., USN, Chief of Naval Operations......     6
Pendleton, John H., Director, Defense Force Structure and             9
  Readiness Issues, Government Accountability Office.

Questions for the Record.........................................    46

                                 (iii)


 
                   RECENT U.S. NAVY INCIDENTS AT SEA

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman of the committee) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Strange, 
Reed, Nelson, McCaskill, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. This committee meets 
this morning to receive testimony on recent U.S. Navy 
collisions at sea, including USS [United States Ship] Lake 
Champlain, USS Fitzgerald, and the USS John S. McCain, as well 
as the grounding of USS Antietam.
    We welcome our witnesses: The Honorable Richard Spencer, 
Secretary of the Navy; Admiral John Richardson, Chief of Naval 
Operations; and Mr. John Pendleton, Director of Defense Force 
Structure and Readiness Issues at the Government Accountability
Office.
    I'd like to take a moment to recognize family members who 
have lost loved ones in the Fitzgerald and McCain collisions, 
who are here with us today as our honored guests. From the 
Fitzgerald, Eric Rehm, the wife of Chief Petty Officer Gary 
Rehm; Stephen Ritsuko and Shono Douglass, parents and brother 
of Petty Officer Third Class Shingo Douglass; Senior Chief 
Petty Officer Victor and Carmen Sibayan and their son, Luke, 
parents and brother of Petty Officer First Class Carlos Victor 
Sibayan; Wayne and Nikki Rigsby, father and stepmother of 
Seaman Dakota Rigsby; Darrold Martin, Chief--father of Petty 
Officer First Class Xavier Martin. From the McCain, Jennifer 
Simon, wife of Petty Officer First Class Kevin Bushell, and his 
mother, Karen Bushell, along with her wife, Anne Shane; Rachel 
Eckels, mother of Petty Officer Second Class Timothy Eckels; 
Theresa and Austin Palmer, mother and brother of Petty Officer 
Second Class Logan Palmer.
    Let me express my deepest condolences to you all on behalf 
of this committee, the U.S. Senate, and the American people. 
Your presence here today reminds us of our sacred obligation to 
look after the young people who volunteer to serve in the 
military.
    Would those individuals who I just named stand so that we 
can recognize their presence here?
    Thank you. And God bless.
    The USS John S. McCain was named after my father and 
grandfather. I remember the ship-launching ceremony, nearly 25 
years ago. My wife, Cindy, continues to serve as the ship's 
sponsor. So, believe me, these tragedies are personal for me 
and my family, as well, and we share in your sorrow.
    My commitment to all of you is that we will get to the 
bottom of these incidents. It's simply unacceptable for U.S. 
Navy ships to run aground or collide with other ships. To have 
four such incidents in the span of 7 months is truly alarming. 
This committee takes seriously its oversight role. We will 
identify shortcomings, fix them, and hold people accountable. 
We will learn lessons from these recent tragedies to make the 
Navy better, and all who serve in it safer.
    I know our Navy leaders share these goals and will work 
together with us to achieve them. To that end, I hope our 
witnesses will help the committee better understand what 
happened with regard to these incidents. We are interested in 
the status of investigations, common factors or trends 
identified, root causes, corrective actions, and accountability 
measures. We'd also like to know the extent and cost of damage 
to the ships, and operational impacts of unanticipated repairs. 
Finally, we ask you to highlight the areas in which we, in 
Congress, can assist to help ensure the safety and proficiency 
of our sailors, including changes to current law.
    I'm deeply concerned by Mr. Pendleton's written testimony, 
which indicates 37 percent--that's over one-third--of the 
training certifications for U.S. Navy cruisers and destroyers 
based in Japan were expired as of June. As he notes, this 
represents more than a fivefold increase in the percentage of 
expired warfare certifications for these ships in the last 2 
years. I would point out, warfare certifications are a ship's 
ability to fully be prepared to engage in combat. Press 
reporting paints an even bleaker picture. The McCain had 
experienced expired training certification in 6 of the 10 key 
area--key warfare mission areas. The Fitzgerald had expired 
certification in all 10 mission areas.
    Secretary Spencer and Admiral Richardson, I don't need to 
tell you that this is troubling and it is unacceptable. We 
acknowledge and appreciate the accountability actions the Navy 
has taken to date. The Navy has relieved two commanding 
officers, a commander and captain. It has issued 20 reprimands 
to other officers and enlisted sailors. Since August 23, the 
squadron two-star strike group and three-star fleet commander 
will all have been relieved, for cause. I assure you that this 
committee will do everything we can to support the Navy 
leadership's efforts to course correct, but we must also call 
you to task and demand answers. As leaders of our Navy, you 
must do better.
    Particularly, I'd like to know why the recommendations of 
the GAO [Government Accountability Office] and other relevant 
reviews, such as the 2010 Fleet Review Panel, were not 
effectively implemented and maintained. The lives of the 17 
sailors lost in the Fitzgerald and McCain collisions were 
priceless, and I mourn their loss. These preventable incidents 
also come with a very real pricetag, in terms of cost to 
taxpayers. I understand the current estimate for repairs is 
approximately $600 million. But, the cost will also be felt in 
unexpected deployments for other ships to meet operational 
requirements.
    I'm also concerned by the apparent difficulty of navigating 
safely in the western Pacific. With three of these ships now 
nondeployable for months or years, due to damage repairs, there 
are serious questions about our maritime readiness to fight in 
response to North Korean, Chinese, and Russian aggression. The 
ongoing reviews directed by Secretary Spencer and Admiral 
Richardson must quickly get to the bottom of this and identify 
root causes, corrective actions, and further accountability 
actions. Time is of the essence. I hope these reviews fully 
examine how discrete changes over the years have resulted in 
prioritizing the need to do more with less, which has come at 
the expense of operational effectiveness. These changes include 
longer deployments, so-called optimal manning of ships, less 
hands on and initial training, less time for maintenance, less 
time to train, and an officer personnel system governed by 
laws, like the Defense Officer Personnel Management Act and the 
Goldwater-Nichols Act, which were put in place more than three 
decades ago and which may have created a preference for breadth 
of experience over depth of technical experience. We need to 
look seriously and rigorously at all of these types of systemic 
contributing factors. I would like your assurance, Secretary 
Spencer, that you will do so, and that, as you consider 
additional accountability actions, you will look at all levels 
of command, as appropriate.
    While we are focused on incidents at sea today, this 
committee recognizes that the current readiness crisis affects 
all of our military services. It is part of a larger, deeper 
trend of forcing military units, at the tactical level, to try 
to do too much with too little. In the last 3 years, fatal 
training accidents have taken the lives of four times more 
servicemembers than our enemies have in combat. This cannot 
continue.
    Unfortunately, this is an issue of command. There's plenty 
of blame to go around for the deteriorated state of our 
military. We cannot ignore Congress's responsibility. Years of 
budget cuts, continuing resolutions, and sequestration have 
forced our military to maintain a high operational tempo with 
limited resources. We know that has come at the cost of 
training, maintenance, readiness, effectiveness, and the lives 
of too many brave young Americans. Our Service Chiefs, 
including the Chief of Naval Operations, have testified 
repeatedly that the Budget Control Act and sequestration are 
endangering the lives of our men and women in uniform. My dear 
friends, we were warned.
    To fix this problem, we must all do better. Military 
leaders must make honest assessments of their requirements and 
request the full extent of what they need. In turn, we, in 
Congress, must provide these resources in a timely and 
predictable way. That is the only way to truly restore the 
readiness of our force. It is the only solution to ensuring 
that accidents like this do not happen again. It is the bare 
minimum we owe to the brave men and women who risk their lives 
to defend our Nation.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Mr. Chairman.
    I want to join Senator McCain in welcoming Secretary 
Spencer and Admiral Richardson and Mr. Pendleton to the 
committee this morning to testify on the issues surrounding the 
recent accidents and the Department's plan for determining what 
went wrong and what steps need to be taken to ensure such 
accidents do not occur in the future.
    Service in the Nation's Armed Forces can be very dangerous. 
The country is saddened whenever we lose one of America's sons 
or daughters, but it is particularly disturbing when young 
people are casualties in the course of conducting normal 
peacetime operations. I want to extend my condolences to the 
families of those who were lost. I know I join all my 
colleagues and Chairman McCain in expressing our profound 
sympathy for your loss.
    We should not prejudge the outcome of the internal Navy 
reviews of the circumstances around these accidents. However, 
we do know that the Department of the Navy has been facing 
serious readiness problems caused by deferred maintenance, 
reduced steaming and flying hours, and canceled training and 
deployments. In addition, the Navy, like other services, has 
also been operating at a very high tempo for a long period. 
These conditions have been aggravated by many years of budget 
constraints and uncertainty which have forced leaders into 
making difficult decisions. All these factors have inevitably 
taken a toll on Navy commanders and Navy operations.
    Secretary Spencer and Admiral Richardson, I ask your 
commitment that you are giving this situation your full 
attention, that you will follow these investigations wherever 
they lead, and that you will share all findings with Congress. 
We must do all that is necessary to provide and sustain our 
Navy and all our Armed Forces.
    Again, I thank the witnesses, and I look forward to the 
testimony.
    Chairman McCain. Secretary Spencer.

  STATEMENT OF HON. RICHARD V. SPENCER, SECRETARY OF THE NAVY

    Mr. Spencer. Chairman McCain, Ranking Member Reed, 
distinguished members of this committee, I want to thank you 
for the opportunity to appear before you and talk about the 
state of our Navy.
    Before we move forward, though, I want to express our 
deepest condolences to the families and loved ones and the 
crews who have lost one of their own in the last few months. 
Having looked into the eyes of many of these families, and 
shared time with them, knowing that their returned ones 
returned home in a flag-draped casket, I know my words are 
completely insufficient. To the families present, please know 
that Polly and I have you in our thoughts and prayers.
    The 17 sailors from the USS Fitzgerald and John S. McCain 
were sons, brothers, husbands, fiances, uncles, and friends. 
They were patriots, and they will not be forgotten. We pledge 
our full support to their families and crews. We're going to 
back our words with actions. We have a problem in the Navy, and 
we're going to fix it.
    In addition to the investigations already initiated, we are 
conducting two thorough reviews. The CNO's [Chief of Naval 
Operations] comprehensive review will take a look at the 
tactical and operational situation at hand. My strategic 
readiness review will be an independent team comprised of 
military and industry experts that will look and examine root 
causes, accountability, long-term systemic issues, and then 
provide remedial insight. These reviews will complement and 
enhance each other, providing the depth and criticality to 
the--that the situation demands.
    After I've received and reviewed the recommendations from 
our teams, I will act, to the limits of my authority, to change 
processes and acquire any needed capabilities in order to 
protect our people.
    I'm here today to impress our sense of urgency and to 
highlight a way forward to renew a culture of safety and 
training across the fleet. We will take lessons learned from 
the recent tragic events and come out the other side a 
stronger, more capable Navy/Marine Corps team.
    Make no mistake, we are not waiting 60 days or 90 days to 
make adjustments. The CNO will address a list of actions the 
Seventh Fleet is taking immediately to address the situation at 
hand, ranging from ship-to-ship materiel inspections to the 
activation of AIS [Automatic Identification System] radar 
identifications while we're trafficking specific areas. We are 
not lying idle, and I can tell you, ladies and gentlemen, we 
are committed.
    I appreciate the opportunity to work with you on the 
remedial solutions and to find our way forward.
    Thank you, and I'll forward to your questions.
    [The prepared statement of Mr. Spencer follows:]

           Prepared Statement by Secretary Richard V. Spencer
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Committee, thank you for the opportunity to appear before you today 
to discuss the current state of the Department of the Navy. The issues 
of safety and training and their impact on readiness are of vital 
importance to the security of our Nation, and are at the forefront of 
every decision we make.
    As you are well aware, the USS Fitzgerald and USS John S. McCain 
were recently involved in two separate collisions that resulted in the 
loss of 17 U.S. sailors. These sailors served with honor and pride and 
we, as a Service, a Department, and a Nation, deeply mourn this great 
loss, alongside their families. These sailors will not be forgotten, 
and our Navy stands in solidarity in support of these families and 
crewmembers. These sailors were not just Navy crewmen but sons, 
brothers, husbands, fiances, uncles, and friends. The stories from 
surviving members' actions taken to save these ships are a direct 
testament to the heroism and dedication of our sailors. I appear before 
you today committed to understanding exactly what happened, why it 
happened, and how we prevent it from happening in the future. Most 
important is what we learn from these tragic events. You have my pledge 
that I will work diligently and tirelessly to examine, listen, and put 
in place the appropriate adjustments in operations and policy to 
reestablish a culture of safety and training across our Fleet, a 
commitment that I know is fully and equally shared by Admiral 
Richardson and the rest of the Navy leadership.
    The Navy has had an increase in surface fleet incidents within the 
past eight months that has resulted in significant loss of life and 
injury. Three of the ships involved--the USS Fitzgerald (DDG 62) and 
USS John S. McCain (DDG 56), and the USS Antietam (CG 54), which ran 
aground in on shoals just outside the Yokosuka Naval Base, were 
homeported in Yokosuka, Japan. Additionally, during this same time 
period, there was the collision between USS Lake Champlain (CG 57) and 
a South Korean fishing vessel. As we mourn the loss of our sailors, we 
must look forward, learn, and improve upon the ways we operate. As 
Secretary of the Navy, I am responsible for ensuring we find out how 
and why this happened and put the necessary controls and procedures in 
place to prevent this in the future.
    Make no mistake; we have a problem. Investigations have been 
initiated. We have completed a commander stand down to start the 
discussions addressing items of concern and points of friction. 
Additionally, both the Service and the Department have started reviews. 
We have taken immediate steps through the start of these investigations 
and reviews to examine root causes in order to address systemic issues.
    While the formal investigations into each event are underway, the 
CNO and I have called for two additional reviews. Admiral Philip 
Davidson, Commander of Fleet Forces Command, is leading a 60-day 
Comprehensive Review. This Comprehensive Review will examine individual 
training and professional development, unit level training and 
operational performance, development and certification of deployed 
operational and mission standards, deployed operational employment and 
risk management, material readiness, and utility of current navigation 
equipment and combat systems, and will include recommendations on 
corrective actions.
    In addition to the Comprehensive Review, I have commissioned a 
Strategic Readiness Review, assembling a team of outside experts with a 
deep knowledge of operational and organizational risk management. This 
group will look at longer term trends and bring their expertise to my 
review of the recommendations that result from the Comprehensive 
Review's efforts. Additionally, the team will review appropriate 
accountability mechanisms across the Department of the Navy, identify 
any deficiencies, and offer recommendations to reduce the potential for 
such tragic events in the future. Together, these reviews will provide 
the appropriate depth, criticality, and completeness demanded and 
deserved by our Nation and service members in the wake of recent 
trends. It will provide the construct from which we will learn and make 
course corrections for the way forward.
    While theories about causal factors for the recent events abound, I 
believe it is in the best interest of the Service and the Nation to 
resist the temptation to jump to conclusions, speculate on causes, 
continue to assess responsibility, and articulate solutions until we 
have completed all investigations and reviews. Our investigations and 
reviews will be fact-based, informed by experts, and supported by 
evidence and data. It is our obligation to ensure the highest integrity 
of these investigations and reviews, and we will protect the process at 
all costs. That includes the responsibility to be fully transparent 
about that process, transparency to which the Department and I are 
committed. When the investigations and reviews are complete, I look 
forward to sharing their results with you and the American people.
    As we examine the systemic issues associated with these tragic 
incidents, we look to Congress to assist us in our path forward. Once I 
have received and reviewed the recommendations made by the review 
teams, I will act to the limits of my authority to change processes, 
acquire any needed capabilities, and protect our people. We will 
address any cultural shifts that might be called for, so we may chart a 
path that ensures we operate and train in an environment that is based 
upon a culture of safety.
    All of these efforts rest on a foundation of sufficient and 
predictable funding to sustain our readiness. As I stated in my 
confirmation hearing, the Navy-Marine Corps team, their families, and 
their civilian teammates have never failed our Nation, and they never 
will. However, I believe that we are failing them through such actions 
as the Budget Control Act and repeated continuing resolutions. This 
imbalance must be rectified.
    I appear before you today with a plan, as well as with a sense of 
urgency, to renew a culture focused on safety and training across the 
Fleet. I commit to you that we will not just look forward, but will 
lean forward to take the lessons from these terrible events and 
incorporate them into the operations of this enterprise. I appreciate 
the opportunity to share our efforts and continue to work together to 
find ways to support our Navy, and I look forward to your questions.

    Chairman McCain. Admiral Richardson.

 STATEMENT OF ADMIRAL JOHN M. RICHARDSON, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Richardson. Chairman McCain, Ranking Member Reed, 
and distinguished members of the committee, I also want to 
thank you for the opportunity to appear before you today to 
discuss the recent U.S. Navy incidents at sea.
    To begin with, I also want to express my deep condolences 
to the families of the 17 sailors who served their country with 
honor and distinction and lost their lives in USS Fitzgerald 
and USS John S. McCain. In both of these tragic incidents, our 
sailors acted heroically to save their ships as they combated 
flooding and the loss of critical systems. Care and support to 
these families, the families of our sailors, is our top 
priority. I've committed to them that we will learn everything 
we can from these tragic events to prevent another accident. As 
you pointed out, sir, many of the family members are here 
today. We will always stand with you.
    What we do is inherently dangerous, but it is leadership 
responsibility to ensure we provide the right training and 
oversight to keep our teams safe and effective. We are taking 
immediate corrective actions to ensure we meet the training and 
materiel readiness standard to prevent another mishap.
    We are not stopping with immediate actions. In addition to 
the investigations into the specific incidents on Fitzgerald 
and McCain, we're conducting, as the Secretary pointed out, a 
comprehensive review, which will turn over every stone to 
examine for more systemic problems. This review will complement 
the Secretary's strategic review.
    I've testified several times about the triple whammy, the 
corrosive confluence of high operational tempo, inadequate 
budgets, and budget uncertainty. The funding approved in fiscal 
year 2017 is being used to plug our most urgent readiness holes 
in the fleet, and our 2018 request sustains that progress. 
While we have prioritized maintenance and readiness dollars, 
full recovery will not happen overnight; it will take years 
with stable and adequate resources.
    But, make no mistake, sir, while these factors do exert a 
negative force on the challenges we face, at the core this 
issue is about leadership, especially command. Our first 
dollar, our first molecule of effort, our first team must go to 
safety. Safety is first. No matter what the situation, those 
charged with command must achieve and maintain a standard that 
ensures their teams are trained and ready to safely and 
effectively conduct assigned operations. We must remain 
vigilant to meeting this standard, fighting against every 
pressure to erode it.
    Our commanders must meet the absolute standard to develop 
safe and effective teams. If we cannot meet the standard, we do 
not deploy until we do. We must establish a command climate 
that supports honest reporting.
    Senator, these incidents demand our full attention. We must 
provide our sailors the necessary resources and training to 
execute their assigned missions. I am accountable for the safe 
and effective operations of our Navy, and we will fix this. I 
own this problem. I'm confident that our Navy will identify the 
root causes, and correct them, and that it will be better in 
the end.
    Again, thank you for the opportunity to be here, and I look 
forward to your questions.
    [The prepared statement of Admiral Richardson follows:]

            Prepared Statement by Admiral John M. Richardson
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Committee, thank you for the opportunity to appear before you today 
to discuss the recent U.S. Navy incidents at sea. To begin, I want to 
express my deep condolences to the families of the 17 sailors who 
served their country with honor and distinction and lost their lives in 
USS Fitzgerald and USS John S. McCain. In both of these tragic 
incidents our sailors acted heroically to save their ships as they 
combatted flooding and the loss of critical systems. Care and support 
to the families of these sailors is our top priority. I have committed 
to them that we will learn everything we can from these tragic events 
to prevent another accident. We will always stand with these families.
    What we do is inherently dangerous. It is a leadership 
responsibility to ensure we provide the right oversight and training to 
keep our team at their operational peak. We are taking immediate 
actions to prevent another mishap.

    <bullet>  I directed a pause across the Navy, both ashore and 
afloat, to review our fundamentals to ensure safe and effective 
operations, and to correct any areas that require immediate attention. 
This pause has been completed, with commanders incorporating deliberate 
processes in their operations to better manage risk.

    <bullet>  We have commenced Readiness for Sea Assessments (RFSA) 
for all ships assigned to Japan, to inspect and assess watchstander 
proficiency and material readiness to ensure ships are able to safely 
navigate, communicate and operate. Immediate remediation will be 
conducted for ships found deficient, and they will not be assigned for 
operational tasking until they are certified to be ready.

    <bullet>  We have taken measures to ensure our sailors get 
sufficient sleep in all shipboard routines to address fatigue concerns.

    <bullet>  All material problems involving ship control have been 
given increased priority for repair.

    <bullet>  To ensure Seventh Fleet ships are properly certified, the 
Pacific Fleet Commander is standing up Naval Surface Group Western 
Pacific (NSGWP) to consolidate authorities to oversee the training and 
certification of forward-deployed ships based in Japan.

    <bullet>  We have commenced a review of certifications of each 
ship, to include developing a plan for each to regain currency and 
proficiency across all certification areas. All waivers for ships whose 
certification has expired will now be approved by the Pacific Fleet 
Commander.

    <bullet>  We have increased focus across the force on open 
communication and thorough debriefing and assessment of operations and 
evolutions through instilling the practice of ``Plan, Brief, Execute, 
Debrief'' across commands. Other cultural changes include increasing 
unit-level operational pauses, increasing access to lessons learned, 
and encouraging time for repercussion-free self-assessments.

    In addition to these actions, the pause yielded results across all 
communities to promote a renewed focus on safety, communication and 
professionalism in the execution of ``routine'' operations. Leaders at 
every level addressed fighting against over-confidence, inattention, 
and complacency through emphasis on adherence to procedures and on 
applying sound operational risk management procedures. We will continue 
to enhance our safety culture in which each sailor is empowered to act 
to control hazards before they become a mishap.
    We are not stopping there. In addition to the investigations into 
the specific incidents on USS Fitzgerald and USS John S. McCain, the 
Vice Chief of Naval Operations directed a Comprehensive Review to 
examine for more systemic problems. Led by Admiral Phil Davidson, 
Commander, U.S. Fleet Forces Command, this effort will review 
individual training and professional development, to include 
seamanship, navigation, voyage planning, leader development and all 
aspects of tactical training. The review will also address unit level 
and operational performance, to include oversight and risk management 
at all levels of the chain of command. The development and 
certification of deployed operational and mission standards--force 
generation--will be reviewed, with an emphasis on Forward Deployed 
Naval Forces. It will also include a review of the material readiness 
of our ships, and the systems required to operate them, to include 
navigation, propulsion, steering, combat systems and material 
availability. The review team includes experts from within the Navy and 
outside experts from other services, academia, and the civilian sector. 
This approach will help ensure we don't have any blind spots as we look 
hard at every aspect of our operations. We will be transparent with the 
results of these reviews and our actions.
    I have testified several times about the ``triple whammy''--the 
corrosive confluence of high operational tempo constrained funding 
levels, and budget uncertainty. Although warfighting capabilities of 
ships have dramatically increased in the last century, the size and 
scope of U.S. responsibilities around the world have also increased, 
and the Navy is feeling the strains of consistently high operational 
tempo. Added to this challenge, eight years of continuing resolutions 
and the Budget Control Act have impacted the ability to plan and 
schedule training, ship maintenance, and modernization. With the $2.8 
billion in funding approved in fiscal year 2017, we are plugging the 
most urgent readiness holes in the fleet. Our fiscal year 2018 request 
sustains the readiness progress, increases end strength, modernizes our 
current platforms, and purchases future platforms and capabilities 
needed to sustain the advantage over our adversaries. While we have 
prioritized our maintenance and readiness dollars, the positive effects 
of funding will not remove this deficit overnight; it will take time 
with stable resources to sustain the upward trend.
    While these factors exert a negative force on the challenges we 
face, make no mistake: at the core, this issue is about command. No 
matter what the situation, those charged with command must hold the 
standard that ensures our forces are trained and certified to safely 
and effectively conduct assigned operations. We must remain vigilant to 
meeting this standard, fighting against every pressure to erode it. We 
must look at our ``can do'' culture and ensure it is also a culture 
that promotes a clear-eyed view of safety and readiness.
    We have been subject to:

    <bullet>  budget pressures to ``do more with less''

    <bullet>  operational pressures to put busy forces on station more 
quickly and more often

    <bullet>  schedule pressures to make adjustments to training and 
maintenance plans.

    None of these can excuse our commanders from adherence to the 
absolute standard to develop safe and effective teams. And when we fall 
short of the ideal, we must make a thoughtful assessment of the 
results, and where necessary put mitigations in place. If the situation 
becomes untenable and we cannot meet the standard, we must not deploy 
until we're ready. It is the diligence and leadership of our commanding 
officers at every level that will implement the changes needed to 
ensure our Navy remains the world's most capable Navy.
    These incidents demand our full attention to provide our sailors 
the necessary resources and training to execute their assigned 
missions. I own this problem. I am accountable for the safe and 
effective operations of our Navy, and we will fix this. I am confident 
that our Navy will identify the root causes and correct them, and that 
we'll be better in the end. I look forward to your questions.

    Chairman McCain. Mr. Pendleton.

    STATEMENT OF JOHN H. PENDLETON, DIRECTOR, DEFENSE FORCE 
   STRUCTURE AND READINESS ISSUES, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Pendleton. Chairman McCain, Ranking Member Reed, 
members of the committee, thank you for having me here today to 
summarize GAO's work on Navy readiness.
    Mr. Chairman, I don't know what caused the tragic recent 
accidents, but I do know, from my work, that the Navy's caught 
between an unrelenting operational demand and a limited supply 
of ships. At this point, I'm skeptical that the Navy will be 
able to make significant readiness gains unless the demands on 
them are decreased. Even with increased funding going forward, 
my assessment agrees with the Navy, that it will take several 
years to rebuild training, manning, and maintenance, 
foundations of readiness that have become shaky over time.
    Our work has also revealed significant management issues 
that the Navy must confront. In a 2015 report, we found that 
the ships based in Japan had such aggressive deployment 
schedules that they did not have dedicated training periods, 
like ships in the United States do. In fact, we were told that 
the ships based overseas were so busy that they had to train on 
the margins. When I asked what that meant, it was explained to 
me that it meant that they had to squeeze in training when they 
could.
    The assumption, I think, was that the Seventh Fleet, 
because it was perpetually in motion, it was ready. I think the 
Navy has now realized that this conventional wisdom was, in 
fact, likely faulty. We recommended at the time, back in 2015, 
that the Navy revise deployment schedules to create dedicated 
training time, and also, more broadly, assess the risk 
associated with increased reliance on overseas basing of ships. 
DOD [Department of Defense] and the Navy agreed with us, at 
least on the paper, but they've taken little action since to 
implement our recommendations.
    The Navy has other even more broad management challenges 
that it must address, like ship manning. A Navy internal study 
found that sailors were often working over 100 hours a week, 
back in 2014, and it concluded that this was unsustainable and 
potentially contributing to a poor safety culture. We 
recommended, in brief, that the Navy assess how much work it 
actually takes to run a ship, and use that to size the crew.
    Maintenance is also taking longer and costing more. Ship 
deployments have often been extended. This causes ships to have 
more problems when they're brought in for maintenance. 
Shipyards have struggled to keep pace, for a number of reasons. 
Over the past few years, the lost operational days that's been 
created by the maintenance overruns have cost the Navy the 
equivalent of the presence of almost three surface ships per 
year. That, in turn, strains the remaining fleet, and it's an 
unsustainable, vicious cycle.
    As you know, the Navy's not alone in its readiness 
challenges. That's why GAO recommended--and this committee has 
supported, the need for the development of department-wide 
readiness rebuilding plan that explicitly balances resources 
with demands, and is transparent about how long it will take to 
rebuild readiness, and what it will cost. I suggest you 
continue to insist that the Department provide you that plan.
    Over the past 3 years, GAO has made 14 recommendations in 
all to the Department of Defense to help guide the Navy and the 
services toward improved readiness. As the Navy and DOD develop 
a roadmap, going forward, I sincerely hope they consider our 
recommendations to help guide them.
    Mr. Chairman, thank you for having me here today, and I'm 
happy to take any questions you have.
    Chairman McCain. Thank you, Mr. Pendleton. I appreciate 
it--your testimony, but more importantly, I thank you for the 
important work that you do, which is incredibly important to 
this committee.
    Secretary Spencer and Admiral Richardson, surface force 
readiness has degraded over the last 10 years. Surface chain of 
command has become complicated on the waterfront. There's a 
blurring of lines of authority and accountability. The growing 
backlog of off-ship repair requirements, a large, deep 
maintenance requirement that has not been adequately identified 
or resourced. The effort to derive efficiencies has overtaken 
our culture of effectiveness. The materiel condition of the 
surface force is well below acceptable levels to support 
reliable sustained operations at sea and preserve ships to 
their full service life expectancy. Ships home-ported overseas 
have limited training and maintenance, which results in 
difficulty keeping crews trained and ships maintained. Some 
ships home-ported overseas have had consistently deferred 
maintenance, resulting in long-term degraded materiel 
condition. Without a sustainable operational schedule and 
comprehensive risk assessment for ships home-ported overseas, 
it will be difficult for the Navy to identify and mitigate 
risks. I could go on.
    Mr. Secretary, do you agree that these statements ring true 
today?
    Mr. Spencer. I do, Senator.
    Chairman McCain. I agree with you. Unfortunately, these are 
findings from the Navy and GAO reports from 2010 to 2015. Many 
of the issues we're discussing today have been known to Navy 
leaders for years. How do we explain that, Admiral?
    Admiral Richardson. Senator, there is no explanation to 
reconcile those two observations. While clearly there is much 
more to be done, and these observations, you know, point to 
those--and I commend the work of Mr. Pendleton and the GAO, as 
well, to providing such sound recommendations--there has been, 
also, a--an effort to address those observations. We've not 
been sitting idle. While it's--clearly been insufficient to 
close the readiness and effectiveness gap, we have been making 
steady investments to respond to the indications that we've got 
in training and manpower and in maintenance. We'll remain 
committed to closing that gap, as well, and reconciling the 
difference between supply and demand.
    Chairman McCain. Well, I can't continue this much further 
without asking your assessment of the effect of sequestration 
on your ability to address these conditions that I've cited, 
which come from GAO and the Navy itself. What effect does 
sequestration--for example, we're now facing the same collision 
coming up with--as of 1 October--what effect does sequestration 
have in affecting these recommendations and situations, as 
described by the GAO and the Navy itself?
    Mr. Secretary?
    Mr. Spencer. Senator, the impact of sequestration and 
continuing resolutions is deleterious. It's an impact on the 
Navy that is stunning. Having been asked to come and run a 
business--i.e., the Navy--as CEO of the Navy on the man, equip, 
train, and supply side of the equation, it's very disturbing. 
Just looking, today, to give you a feel, Senator, with the CR 
[continuing resolution] that's coming up, starting October 1, 
going through December 8th, the fleet will mitigate 
approximately $200 million of O&M shortfall over the next 69 
days.
    Chairman McCain. That's operation and maintenance.
    Mr. Spencer. That is correct, I'm sorry.
    Chairman McCain. Okay, go ahead.
    Mr. Spencer. It's a tentative number. It's still in work. 
But, that's where we think it's coming from. The fleet will 
minimize the impact by incrementally funding or shortening 
periods of contracts, where possible. This will cause a 
degradation in the quality of work. The fleet will also delay 
consumables and phased replacement materiel, purchasing for 
ships, and this will impact, again, the quality and service and 
the operation of the ships. We have to do management of the 
funds resources we have. This is not solely a funds issue, but 
you asked about CR and the effects of sequestration. We are 
living them. They are untenable.
    Chairman McCain. Admiral?
    Admiral Richardson. Sir, if I could add to that. The 
effects of sequestration and continuing resolutions makes 
everything harder. Everything. As we face the continuing 
resolution before us now, in addition to what the Secretary 
said, we will be considering deferring or slipping 11 more ship 
maintenance availabilities. There are dozens of new projects 
that we won't be able to get started on. These are things that 
had--start to address some of these conditions that we've got.
    Over the past 9 years now, as we review the data, the 
number of efficiency studies, effectiveness studies--they all 
result in a constant pressure to do more with less. It rarely 
results in an increase.
    Having said that, sir, I maintain that this is an issue of 
command, and that, if you only give us one ship, it's our 
obligation to operate that ship safely and effectively. I do 
not--while that makes it harder, that is not--in no way an 
excuse for the performance that led to these four incidents.
    Chairman McCain. Mr. Pendleton, do you have anything?
    Mr. Pendleton. Yes. We heard about the impact of budget 
everywhere when we do our work. It's hard to pin it down 
exactly. There are examples in our reports of depot maintenance 
being deferred and furloughs, and postponed deployments, and 
ship fuel problems. I think it's a cumulative disruption, at 
this point. I think--what we judged, back last year, was, we 
are where we are and the Department, not just the Navy, needs a 
plan for going forward, in part to be able to articulate what's 
real and reasonable, going forward, sir.
    Chairman McCain. Thank you.
    I'm very proud of the vote of confidence in Senate approval 
of the Defense Authorization Act, which was overwhelming and a 
source of pride to me, that all 27 members of this committee 
agreed on the legislation that was just approved 
overwhelmingly. I have to point out, there was an effort, by an 
amendment by Senator Cotton, to try to rectify this 
sequestration issue to some degree. I will not name 
individuals, but it was blocked from even being considered for 
a vote. That, to me, is--well, it's disgraceful.
    Senator Reed.
    Senator Reed. Well, thank you, Mr. Chairman.
    Admiral Richardson, you continue to come back, and I think 
approximately, to the issue of command, even though we all 
understand the fiscal and procedural and resource constraints 
that Navy has faced. But, the issue of command is played out 
in--not theoretically, but very practically. That's when a 
commander says, ``I can't do this, because my ships is not 
ready.'' Have you, in your capacity, indicated to COCOMs 
[combatant commands] that you can't provide ships because not 
ready--has commanders of individual ships said, ``I can't''--to 
the fleet--''I can't move, because my ships is not ready''?
    Admiral Richardson. Senator, as I've testified before, and 
you know very well, we don't meet more than 50 percent of the 
combatant commanders' demands, as it is, at least from a force-
structure standpoint and--a combination of that is due to 
readiness. There have been times, where I've spoken with my 
subordinate commanders, where there is just insufficient time 
to get a force trained and certified to meet a deployment date 
when we have to go back to the combatant commander and say, 
``You're going to have to wait.''
    Senator Reed. With respect to the issue of command, when 
those tough calls are made by the commander, does that result 
in any kind of either formal or informal disparagement of the 
commander; that's----
    Admiral Richardson. If I could go down and give that 
commander a handshake and a medal, I would do that. This is 
exactly the type of honesty and transparency that we need to 
run a Navy that's safe and effective.
    Senator Reed. In the process, going forward, not only will 
you be attempting, I think, to analyze the issues, come up with 
resources, but also continue to stress the idea of commanders 
having the ultimate responsibility to determine the worthiness 
of their ship.
    Admiral Richardson. That'll be the absolute center of 
gravity of our effort, sir.
    Senator Reed. The--Mr. Pendleton and his colleagues have 
done some excellent work, and they point out that the 
certifications of a significant number of ships, particularly 
in the Pacific, are not adequate. Can you tell us what that 
certification means? Is that a good indication of the 
capability of the ship, or is that not?
    Admiral Richardson. This is an indication that we use, sir. 
This is our indication. It's either a good indication or it's a 
meaningless indication. I'd like to think that those 
certifications mean something. It--while Mr. Pendleton's report 
gets to some ratios--and I'll leave it to him to get to that 
math--I agree with his conclusion that, over the last 2 years, 
the number of certifications on our ships, particularly in the 
forward-deployed naval force in Japan, has dropped 
precipitously. That deserves our full attention. It should have 
been brought to our attention more urgently before now.
    Senator Reed. With respect to deployed forces, there seems 
to be a distinction between deployed forces and stateside 
forces, in terms of lots of things--repairs, refitting, 
resources, training. That is going to be a focus, I presume, of 
you and the Secretary's inquiries about what's the--why the 
disparity?
    Admiral Richardson. It certainly will be a focus of the 
comprehensive review, to take a look at the way we generate and 
certify readiness, compare it to the forces in the United 
States, the rotational forces that leave--deploy and come back, 
versus those forward-deployed forces that remain at a higher 
state of readiness in theater.
    Senator Reed. Admiral Richardson, over the last several 
years, the Navy--not the Navy alone, but all the military 
services--have attempted to quote/unquote ``streamline 
training,'' make it more effective because of deployment 
schedules, because of the availability of personnel. Do you 
think that, in any way, contributed to the--these accidents, 
that these young people were, you know, hustled through, if you 
will, and not--without the same kind of opportunities that 
predecessors might have had to learn their jobs?
    Admiral Richardson. Sir, I'll tell you that it's too early 
to say if these had a specific impact on those incidents. Those 
investigations are still in progress. But, we are looking 
specifically at that. You know, what is the climate with 
respect to the priority of training and certification, and does 
it always get given lower priority to operations and the need 
to go out and execute the mission? As Mr. Pendleton and the 
Secretary have hinted, that, when maintenance periods run long, 
that further pressurizes our operational time. Training gets--
you know, is there a pattern to consistently box out training, 
particularly the training on the fundamentals? That's 
absolutely a focus of the investigations.
    Senator Reed. Thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I chair the Readiness Subcommittee, and on February 8th, we 
had a readiness hearing. Admiral Moran was at that hearing. 
Now, keep in mind, that was February the 8th, and, of the four 
incidents we're talking about, all except the one on January 
31st were since that hearing that we had, Secretary Spencer, at 
the readiness hearing. In fact, I look at your situation, that 
you've now been on the job for, what, 5 weeks, 6 weeks. I'll 
bet you wonder sometimes what you've gotten into. But, it's a 
tough, tough situation, and you're the kind of person that can 
try something new. I'm----
    But, at this hearing, Moran testified that the Navy could 
only meet about 40 percent of its demand from the regional 
combatant commanders. We've heard the reaffirmation of that, 
which has been going on for a long time. We also heard the Navy 
is the smallest it's been in 99 years. He went on to say, 
``It's become clear to me that the Navy's overall readiness has 
reached its lowest level in many years. That is all due to the 
inconsistent, insufficient funding that does not match the 
demand for Navy forces due to global threat situations.'' So, 
we hear over and over again that the Navy is taking on more, 
and with less.
    So, Secretary Spencer and Admiral Richardson, if the Navy 
is focused on ensuring the foreign deployed ships are ready, 
and recent history is our example, what shape would the rest of 
the fleet be, in terms of readiness? What shape are the rest of 
the non-forward-deployed in? How would you characterize that?
    Admiral Richardson?
    Admiral Richardson. Sir, it has been our consistent 
priority to resource those forces that are forward deployed and 
that are going to deploy, and that the surge force, as we call 
them, those forces that are here in the continental United 
States that may be the next to deploy or they may be called to 
respond in a crisis to reinforce the forward-deployed forces, 
those are the ones that remain less ready than we need them to, 
to respond in the way that they need to.
    This is where you do a lot of that basic training, right? 
The one thing that's unforgivable in these situations is time. 
You just cannot get back the time.
    Senator Inhofe. Yeah.
    Admiral Richardson. So, the flying hours don't--you can't 
catch up, right? That time is gone. The steaming hours, all of 
those things that don't happen in basic training, it's very 
hard to recapture that, just in terms of developing the level 
of experience and sophistication.
    Senator Inhofe. Okay. You've caused for--called for a 
comprehensive review and an operational pause. When did the 
operational pause start?
    Admiral Richardson. The operational pause started pretty 
much immediately after the collision of John S. McCain.
    Senator Inhofe. Yeah. I know that the comprehensive review 
is still underway. Can you talk about anything that, perhaps 
during this pause, you might--any observations----
    Admiral Richardson. Senator, thank you. I did direct that 
operational pause, because, at that point, I needed to elevate 
this to a Navy-wide perspective so that, both the shore and 
afloat, we took some time to stop, take a break, and review our 
fundamentals to ensure that we are operating safely and 
effectively, and to correct any areas that required immediate 
attention.
    In addition to that pause, the Seventh Fleet conducted a 
standdown to address navigation and seamanship basics. As a 
result of that, we've made a number of corrections--immediate 
actions, if you will. All--first of all, all waivers for 
certifications, the certification process has been elevated now 
to the four-star level at the Pacific Fleet commander. We are 
reviewing every single ship, ship by ship, to evaluate their 
materiel and operational readiness. That is being done both 
administratively to make sure that our certification process--
--
    Senator Inhofe. Yeah.
    Admiral Richardson,--is good, and also with physical 
visits.
    Senator Inhofe. Yeah.
    Admiral Richardson. The--we have also convinced a 
readiness-for-sea inspection on all of those ships, to inspect 
and assess watch-standard proficiency and materiel readiness.
    Senator Inhofe. So, that pause has aided you in your 
comprehensive review.
    Admiral Richardson. Yes, sir. I mean, I have a list that I 
could go on and on, in terms of immediate actions, but we are 
not waiting for these longer-term comprehensive reviews to 
complete; we're taking that action now to ensure a margin of--
--
    Senator Inhofe. Yeah.
    Admiral Richardson,--safety for----
    Senator Inhofe. Thank you very much. Mr. Pendleton, your 
candid and, I think, alarming assessment of the whole situation 
is not a surprise. As you look over all the forewarned things 
that--I think the Chairman said in his opening statement, said, 
``We were warned,'' and I think we were. It does boil down to--
I think it does--resources, and a lot of it--I think you would 
probably agree with that.
    This is what I'd like to ask you to do. I have 14 things in 
the defense authorization bill that we just passed yesterday, 
and, assuming that we're able to keep these things in there, 
recognizing we have a conference to go, and other--
appropriations and all that--I'd like to have you look at these 
14 things, look at the problems that we're trying to address in 
this particular hearing, and give us your evaluation as to how 
these--any of these 14 things might resolve the problem in the 
long term and the short term. All right?
    Mr. Pendleton. We'll be happy to do that and provide it for 
the record.
    Senator Inhofe. Thank you.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all for being here today.
    Cybersecurity, as we all know, is a growing concern as we 
become more reliant on electronic means for communication, for 
storage of data, for operation and day-to-day systems, and also 
for navigation and control systems. I understand that 
cyberexperts from the Tenth Fleet were sent out to Singapore to 
investigate electronic data onboard the USS John McCain to see 
if any cyberintrusions had taken place, and that Admiral Moran 
stated, last week, that future accident investigations will 
include cyber investigations to ensure that there's been no 
tampering.
    Can you tell me--I guess this is for you, Admiral 
Richardson--what are we doing proactively to ensure the 
security of our navigation systems and our electronic systems?
    Admiral Richardson. Senator, just as you said, we did send 
an investigation team out to the John S. McCain to take a look 
at that. I got a report, an update on that, just this morning, 
and still no evidence of any kind of intrusion or tampering 
yet. We're continuing to investigate.
    The Navy has been on a steady path to continue to harden 
ourselves to be prepared for operations in combat in the 
cyberdomain. That starts, first and foremost, like everything, 
with people and organizations. We've been steadily bringing in 
and training cyberexperts into our team. We stood up that Tenth 
Fleet as a response to that. We have technical authority at 
the--at SPAWAR [Space and Naval Systems Command], out in San 
Diego, and we've got an information warfare-type commander, 
just like all the other services, down in Hampton Roads, 
Virginia. We believe that we're organized properly. Those 
organizations are becoming manned, billets are being filled, 
and the training is being done.
    We are doing a combination of things. Many of these 
measures require physical standards so that our systems are 
hardened against intrusion. We are certainly baking those in to 
new systems that we are bringing onboard. We are looking at 
hardening those legacy systems that we already own, to the 
greatest degree possible. A very fast-moving problem, a very 
dynamic problem. I'm not saying we're there yet, but we're 
giving it very high priority and resources.
    Senator Shaheen. Well, thank you. I'm glad to hear that. 
Obviously, that's another area where resources are very 
important.
    Senator McCain has talked about the problems of 
sequestration, which everyone on this committee knows very 
well. But, I wonder if you could talk, in detail, about the 
impact of continuing resolutions, budget cycle after budget 
cycle, and how they affect maintenance and training plans for 
ships, and are forward-deployed ships affected more than ships 
stateside, is there any correlation there?
    Admiral Richardson. Ma'am, as I said, we will prioritize 
our resources to those forces that are forward deployed and 
that will deploy forward. We will not leave those teams short 
of resources.
    Having said that, the uncertainty that--well, actually--to 
not get a budget on time has become, actually, certain. We're 
certain that we're not going to get a budget in the first 
quarter.
    Senator Shaheen. Which is a sad commentary----
    Admiral Richardson. Which is----
    Senator Shaheen.--on the budget situation.
    Admiral Richardson. Behaviors have adapted. We don't put 
anything in--important in the first quarter of the year. We 
have to compete three out of four quarters of the game.
    In addition to just to that fact, what happens is, you have 
to double your contracting. Right? You have to right a tiny 
little contract for the length of the continuing resolution, 
and then you have to write another one for the rest of the 
year. As you know, nothing new can start. We try not to 
schedule anything new in that first quarter.
    The maintenance and training, those are the hardest things. 
As those--as the uncertainty, you know, injects itself, it is 
always that the things on the bubble are maintenance periods, 
particularly surface-ship maintenance periods. It is, you know, 
how many steaming hours am I going to get? How many flying 
hours am I going to get? $150-million-per-month shortfall, how 
do I manage that? These are the effects of continuing 
resolutions.
    Mr. Spencer. Senator, can I add to that context, if I----
    Senator Shaheen. Please.
    Mr. Spencer.--if I may?
    One of the things that you heard me testify, when I was 
first here for confirmation, was, we really have to get our 
hands on industrial science, which the most primary fundamental 
of that is the line of sight to your resources. As I'm out 
there speaking to our suppliers and our contractors, who are 
more than willing to work on our behalf, they cannot run their 
businesses when they don't have line of sight to commitment. 
That is critical.
    Senator Shaheen. Certainly, that's something that I've 
heard from suppliers in New Hampshire, as well.
    Thank you all.
    Chairman McCain. Senator Wicker.
    Senator Wicker. Admiral Richardson, Mr. Pendleton said he 
doesn't know what caused these accidents. After the two reports 
come out, do you think we'll have a better idea and Mr. 
Pendleton will be----
    Admiral Richardson. We'll be crystal clear on that, sir.
    Senator Wicker. Okay. When can we expect these reports?
    Admiral Richardson. The comprehensive review, I put a 60-
day tether on that. That's----
    Senator Wicker. Sixty days from today?
    Admiral Richardson. Sixty-day--it should complete in mid 
October--mid to late October.
    Senator Wicker. Okay.
    Admiral Richardson. Secretary's strategic review will 
complete, nominally, 30 days after that. I do want to 
emphasize, that's an aggressive timeline. I want to get these 
answers now, but I also want to get these answers right. We'll 
evaluate to make sure that we're doing a complete assessment, 
and not just rushing to a partial assessment.
    Senator Wicker. Okay. Now, you mentioned leadership, and 
particularly at the command level. Can you shed any more light 
on the two officers who were fired last week? The Navy 
mentioned a loss of confidence in their ability to command. Are 
you able to be more specific to the committee at this point 
about those two individuals?
    Admiral Richardson. Sir, if I could, I'd like to defer 
until the investigations are done, and then we can come forward 
with a full----
    Senator Wicker. Okay. But--well, can you say, were those 
two individuals onboard either of those ships?
    Admiral Richardson. The two--the commodore and the strike-
group commander were not onboard the ships.
    Senator Wicker. They were not aboard the ships.
    Admiral Richardson. No, sir.
    Senator Wicker. Okay. Well, now let--and certainly, the 
Chairman is correct, and witnesses are correct, about 
sequestration. My commendation to Senator Cotton for trying to 
solve this issue. I want to be his teammate on that. It's way 
past time that we address this issue.
    We have a modernization issue, and we have the more 
immediate readiness issue. I think they're both tied together. 
Let me ask you--just continue with you, Admiral Richardson. We 
have a requirement for 355 ships in our fleet today, is that 
correct?
    Admiral Richardson. Sir, several studies--Navy studies, 
outside-the-Navy studies--have pointed to a fleet size around 
355-360 ships.
    Senator Wicker. You support that, do you not, Secretary 
Spencer?
    Mr. Spencer. Yes, I do.
    Senator Wicker. Admiral, it's a fact that we're now asking 
276 ships to answer the requirement that the--that a minimum of 
355 ships would take.
    Admiral Richardson. This is the math behind the fact that 
we can only source about 40 percent of the world demand right 
now.
    Senator Wicker. To the extent we're asking fewer ships to 
do the--a larger amount of work--to the extent that we've--that 
we reduced our fleet size by 20 percent since 9/11, it is a 
fact that the Navy is busier than ever, and that's got to 
affect readiness, as well as the longer-term modernization 
issue. Is that not correct?
    Admiral Richardson. Sir, we are maintaining essentially the 
same level of forward presence with that 20 percent--smaller 
fleet. That has resulted in some exceedingly long deployment 
lengths, as Chairman McCain pointed out. We've corrected that 
back down to about 7 months as a sustainable length. But, our 
ships have been run hard. They are spending more time in 
maintenance, and that pressurizes the operational time.
    Having said that, again, I'd bring it back to the 
fundamental importance of command here, to monitor the 
readiness of your ships, your aircraft, your submarines, and to 
report when those----
    Senator Wicker. Well, I appreciate your acknowledgment of 
that.
    Let's just talk a little about training. Let me toss out 
the idea of incorporating more virtual training, simulator-
based training, into the curriculum for deployed sailors. Are 
you considering incorporating more of this high-tech, high-
fidelity--and simulators into regular training as a way to 
address that issue?
    Admiral Richardson. Sir, we've been on that path for some 
time. I'd love to take you around and show you some of the 
advanced simulators that we use, both ashore and at sea, to 
keep our skills----
    Senator Wicker. So, we're where we need to be on that?
    Admiral Richardson. Well, we can always do more, and I will 
tell you that the technology is allowing us to get more and 
more realistic in the scenarios that we present to our sailors, 
and we're adopting that technology as fast as we can.
    Senator Wicker. Finally, what about this issue of sleep 
deprivation? There have been some New York Times articles, and 
other publications, about pervasive sleep deprivation among 
sailors, particularly surface warfare officers standing watch. 
Do you think that's likely to be one of the reasons that we 
eventually get down to on this issue?
    Admiral Richardson. Sir, we're investigating that specific 
claim very, very closely. Many parts of our Navy have already 
mandated a 24-hour circadian rhythm watchstanding rotation, you 
know, to ensure that everybody gets sleep inside their natural 
circadian rhythm. Admiral Rowden, the--commander of Surface 
Forces, just recently issued--while it was recommended before, 
he now said it'll be mandatory. But, we're diving into that 
deeply.
    Senator Wicker. Well, we await your further information, 
and thank you for your leadership.
    Chairman McCain. Admiral, is it true that some of our 
sailors are working 100-hour weeks?
    Admiral Richardson. Sir, I'll not deny that. The sailors 
are working very hard. We have been doing some workday type 
studies. We've got some, particularly in the DDGs [Guided 
Missile Destroyer], the cruisers, the Arleigh Burke-class 
destroyers, and we're starting to respond to that by 
supplementing the crews.
    Chairman McCain. Okay. But, I'd just point out, if we know 
that somebody's working a 100-hour workweek, I'm not sure we 
need a study.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Admiral Richardson, you just said something really 
interesting, just now, that it is the responsibility of the 
commander to monitor the readiness of their ships to--readiness 
to deploy. So, are you saying that, if a commander says that 
his ship--his or her ship is not ready, will that result in 
nondeployment of that ship?
    Admiral Richardson. If we're aware that a ship is not 
certified and ready to deploy, that ship should not deploy.
    Senator Hirono. You're going to take that commander's 
assessment of it. Is that how it works in the chain of command?
    Admiral Richardson. There's also his immediate superior in 
command. There are several layers of people that are monitoring 
this. We don't put it all on the commanding officer of the 
ship.
    Senator Hirono. But, I think that's what you meant when you 
said that you would have to also change the culture? Because 
already you're only able to meet 40 percent of the combatant 
commander's request, so the culture issue is probably that 
everyone wants to meet the demands for deployment, and so the 
culture needs to be changed. That's safety first. Is that what 
you meant when you said culture?
    Admiral Richardson. We completely agree with you, ma'am. We 
have a can-do culture. That's what we do. Nobody wants to raise 
their hand and say ``I can't do the mission,'' but it's 
absolutely essential that, when those are the facts, we enable 
that report.
    Senator Hirono. So, now you're going to institute a can-do-
with-safety-first culture.
    Admiral Richardson. Exactly.
    Senator Hirono. The Optimized Fleet Response Plan, the new 
fleet deployment and maintenance model, appears to be falling 
short. It leaves no margin for error and extended deployments. 
Maintenance backlogs and missed training evolutions appear to 
have become the norm and commonplace. While it is too early to 
identify the exact causes of the accidents, developing a more 
flexible and realistic plan should increase the ability to 
train and conduct maintenance, and lead to fewer accidents.
    Admiral Richardson, is the Navy looking to update the plan, 
and how does the Navy intend to address this issue?
    Admiral Richardson. Ma'am, just to be very specific, the 
Optimized Fleet Response Plan (OFRP), is that plan by which we 
prepare--maintain and prepare and certify for deployment those 
forces based here in the United States. That is a flexible 
plan. There have been many times where I've had discussions 
with Admiral Davidson or Admiral Swift that we needed to 
accommodate a delay in maintenance. We extend the training 
period, and, if necessary, we deploy late. So, you can only 
compress it so much.
    Senator Hirono. So, you're making a distinction that OFRP 
is for those ships that are on the mainland, where the problem 
or many of the concerns arise with the forward-deployed ships. 
Is there an OFRP plan that doesn't leave much room for 
exigencies----
    Admiral Richardson. This is the observation----
    Senator Hirono.--with regard to----
    Admiral Richardson,--Mr. Pendleton and the GAO, that 
these--the way by which we generate and certify readiness in 
the forward-deployed naval forces is a bit different. We expect 
them to maintain an overall higher level of readiness, and so, 
they don't get as deep as of--maintenance out there. They get 
more continuous types of maintenance so that they can stay 
overall ready.
    But, where we run into trouble is when the pyramid gets 
inverted. The first thing we should be doing is maintaining 
safe and effective certifications. Only with those done, and 
the maintenance properly done, can we expect to deploy 
effectively and execute the mission. What we're seeing is that, 
particularly for the forward-deployed force in Japan, that 
pyramid became inverted, mission became first, at the expense 
of the----
    Senator Hirono. So, what are you planning to change that 
situation?
    Admiral Richardson. So, this is the absolute specific focus 
of the comprehensive review, to dissect that and make 
adjustments.
    Senator Hirono. You noted in your testimony--and this may 
be a question that you can only respond to for the record, 
because I am running out of time--in your testimony, you said 
that the Navy's subjected to budget pressures, to do more with 
less, operational pressures to put busy forces on station more 
quickly and more often, and schedule pressures to make 
adjustments to training and maintenance plans. You also noted 
that none of these can excuse the commanders from doing what 
they're supposed to do. But, of the three pressures you that 
identified in your testimony, which do you have the most 
control over? Budget pressure, operational pressure, schedule 
pressure--which do you have the most control over?
    Admiral Richardson. I would say the two that we have 
greater control over are operational and schedule pressure.
    Senator Hirono. So, I would be interested to know what 
you're doing with your control and operational and schedule 
pressures to address these concerns that have been raised in 
this hearing.
    Admiral Richardson. Yes, ma'am.
    [The information referred to follows:]

    Admiral Richardson. The Optimized Fleet Response Plan 
(OFRP) is the Navy's primary tool to manage operational and 
schedule pressures for Continental United States (CONUS) and 
Hawaii-based ships. OFRP provides certain entitlements for 
depot maintenance, training, and certification in every cycle. 
To reassess these entitlements and identify areas for 
improvement, we are conducting comprehensive ``Ready for Sea'' 
assessments to determine the material and operational readiness 
for all Japan-based ships. We are developing a force generation 
model for ships based in Japan that addresses the increasing 
operational requirements, preserves sufficient maintenance and 
training time, and improves certification accomplishment. We 
have permanently established Naval Surface Group Western 
Pacific as an administrative headquarters responsible for 
maintaining, training, and certifying Japan-based ships, 
focusing on these responsibilities for operational commanders.

    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton.
    Senator Cotton. Thank you, gentlemen, for your testimony 
today.
    My deepest condolences go to the family members and the 
fellow sailors of the men and women who were killed on both the 
Fitzgerald and McCain.
    It's hard to imagine, no matter what your investigations 
ultimately prove, that at least some part of the fault will not 
lie with Congress and the steady erosion of budgetary support 
that we have provided the United States Navy and the entire 
military.
    We have heard again this morning, from both sides of our 
aisle, complaints about the Budget Control Act of 2011, and 
specifically the automatic spending cuts known as 
sequestration. Well, we had a perfect chance to finally end 
those over the last week on the floor of the Senate. I offered 
an amendment, as Chairman McCain said, that would have 
eliminated those automatic spending cuts, not only on defense, 
but on domestic spending, as well. It's no secret that I think 
many of those domestic programs could tighten their belt a 
little bit, but I knew that we needed a bipartisan solution.
    I think every member of this committee has called for that 
at one point or another, to include every Democrat, but we 
didn't even have a vote on the amendment, because Chuck 
Schumer, the Democratic leader, wanted more to leverage in 
budget negotiations later this year, and the Democrats in his 
caucus went along with him. So, their complaints about 
sequestration fall somewhat on deaf ears.
    Now, they will say that our amendment didn't also address 
the so-called mandatory sequester. But, let me point out, 
first, that that doesn't affect a single dime of benefits to 
Social Security or Medicare or veterans benefits, and, 
moreover, virtually every one of them has voted at least twice 
to extend the automatic sequester into the future, when they 
did not seem that troubled by it. Politics prevailed here.
    Now, let me turn to the state of your sailors' training. 
Admiral Richardson, in the GAO report there are indications 
that, in the forward-deployed naval forces, you have sailors 
who have not achieved mission-critical certifications on things 
like seamanship, air warfare, ballistic missile defense, 
cryptography, electronic warfare, intelligent strike warfare, 
cruise missile tactical qualification, naval surface fire 
support, surface warfare, undersea warfare, and visual board, 
search, and seizure. Without trying to assess whether these 
failures--or these lack of certifications were behind the 
incidents with the Fitzgerald and the McCain, I assume that's 
something that you seek to address rapidly.
    Admiral Richardson. Yes, sir, absolutely.
    Senator Cotton. To help the layman understand, these 
certifications would be akin, in the Army or the Marine Corps, 
to basic rifle qualifications. Is that right?
    Admiral Richardson. Senator, some of them are, so there's 
sort of a--two tiers to those certifications that you just 
described. Depending upon which one you named, it would break 
out into--some are just fundamental ship handling, navigation, 
safety, you know, how to operate your ship safely at sea, the 
fundamentals, if you will, and then some of them are much more 
higher-end, sophisticated warfighting requirements.
    Senator Cotton. Are--the Navy is obviously a forward-
deployed force that is always operating, even if it's not in an 
active zone of conflict; whereas, the Marine Corps or the Army 
deploys to places like Iraq and Afghanistan and then trains at 
places like Camp Lejeune and Fort Campbell. Are these 
certifications things that can occur onboard, or do they have 
to be off of a deployment cycle and occur back at their bases?
    Admiral Richardson. They can occur within that--
particularly the--for the forward-deployed naval forces, they 
can occur in the course of maintaining yourself operational. 
You just have to dedicate the time to do the training and get 
the team onboard to do the certification.
    Senator Cotton. Thank you.
    We've also spoken some about discipline and accountability 
for officers, to include some petty officers who were found at 
fault. What is the status, if any, of potential awards of 
medals for those sailors who saved the lives of their fellow 
sailors?
    Admiral Richardson. Sir, I'll have to get back to you on 
the specifics, but, you're right, there was definitely heroic 
acts on both of those. I can get that back to you. It's 
certainly our intent to recognize heroism where it was seen.
    [The information referred to follows:]

    Admiral Richardson. Results of the investigative process 
will determine those sailors to be nominated for awards as a 
result of their heroic actions. This will take some time to 
complete. Anticipate that several sailors would be nominated 
for the Navy/Marine Corps Achievement medal.

    Senator Cotton. I hope so. You know, as you state in your 
written testimony, what the Navy does is inherently dangerous. 
I'd say that of all the Armed Forces, even when they're not in 
an active conflict in places like Iraq and Afghanistan. 
Certainly, great heroism was displayed.
    One final question I want to ask the Secretary and the 
Chief. In studying the causes of these incidents, what steps, 
if any, has the Navy and the intelligence community taken to 
rule out the possibility of a deliberate act of a hostile 
power?
    Mr. Spencer. Senator, it's all underway in the reports, 
what we call the ongoing reports, the technical reports that 
are going on right now. You heard the CNO speak earlier that 
Admiral Tighe and her group in the Tenth Fleet, on the cyber 
side, are doing their reviews there. Intelligence is also 
looking at it. So, it is being discussed.
    Senator Cotton. Thank you.
    Anything to add, Admiral Richardson?
    Admiral Richardson. No, sir. Absolutely no stone unturned. 
We're looking at everything.
    Senator Cotton. Thank you.
    Senator Reed [presiding]. On behalf of Chairman McCain, let 
me recognize Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks, to the witnesses.
    Before we begin on the topic, I want to just comment on 
Senator Cotton's discussion about his amendment. I supported 
the amendment and was looking forward to voting for it. Others 
in my caucus felt the same way. You have a reason to be 
concerned. The only thing I would add to your concern is, there 
were a whole lot of amendments that the Democrats wanted to 
offer, and they were all cut off, too. So, you didn't get a 
vote--your not getting a vote was not because of people 
necessarily wanting to avoid the issue; it was wanting to have 
a robust amendment process. If everybody else's amendments were 
going to get kicked out, sadly, yours did, as well. I regret 
that it was.
    Let me now focus on this topic. I want to acknowledge the 
sacrifice of the sailors who lost their lives in these 
instances. This is why we're here, and this is why we need 
answers. Particularly, those families from Virginia: Dakota 
Rigsby, Gary Rehm, Timothy Eckels, and Charles Finley, who were 
either from Virginia or had been stationed in Virginia. We need 
to acknowledge them.
    Admiral Richardson, I talked to you yesterday about the 
seriousness of this investigation--the two investigations. I 
was Governor of Virginia when there was a horrible violent 
incident at Virginia Tech, and 32 people were killed by a 
deranged young guy who killed them. I went to Virginia Tech the 
day after the tragedy. I was told by the president of the 
university that they would empanel a panel to review what 
happened, and I said, ``No, you're not going to empanel a 
panel. I'm going to put together a panel. I'm going to make 
sure the panel has experts who have no connection with Virginia 
Tech and who have no connection with any of those who were 
injured or wounded, and I'm going to ask them to tell me 
everything that went wrong and everything we can do to fix 
it.'' I was advised, by lawyers connected with the State, 
``Don't do that. It will give people a roadmap to bring a 
lawsuit. It will open up all kinds of pain for the State if 
you're candid and unsparing.'' I said, ``I don't care about the 
lawsuit. People died. The only thing that we can do, sadly, is 
try to learn everything we can from what caused them to die so 
that we can reduce the chance that that happens to anybody 
else. So, we're going to get every answer, and we're going to 
be transparent and public about every answer, and then we're 
going to fix everything we can.''
    That's what we expect from the two investigations that are 
being done. They will be unsparing, they will get every answer, 
they will be transparent about every answer, and then we will 
work together with you to make sure we fix anything that needs 
to be done.
    You've been asked questions about training. I was on a 
radio program this morning, just coincidentally, in Hampton 
Roads, mentioned this hearing, and, over the course of a 5-
minute interview, the host said, ``I just got a text from a 
sailor saying that training on seamanship is lax.'' By the end 
of the interview, said, ``I've gotten five more texts basically 
saying similar things.'' I think this has been affected, 
certainly, by sequester and the reasons that we've discussed, 
but I want to ask about something else, and ask whether this is 
going to be part of the scope of the investigation.
    My understanding was that, in 2003, the Navy changed the 
surface warfare officer basic training course. It was a 6-month 
classroom instruction, and they changed it to a strictly 
computer-based syllabus. More recently, they returned to a 
class-based syllabus that was only a 9-week course. Is that 
correct?
    Admiral Richardson. Sir, that is correct. Back in 2003, we 
stood down the Surface Warfare Officer School, at the division 
officer--the beginning level. We thought we could achieve the 
aim and train surface warfare officers, junior officers, with a 
computer-based approach combined with on-the-job training at 
sea. We found that that was woefully inadequate, have 
reversed--come out of that. It was sort of a two-step process 
to come out of it, but now our junior officers and surface 
warfare pipeline do begin with a basic division officer course 
which is 8 weeks long. It stresses fundamentals. It spends a 
tremendous amount of time on seamanship and navigation, lots of 
simulators, as Senator Wicker pointed out. About midway through 
their division officer tour, or between their two junior 
officer tours, there's an additional 8 weeks of more advanced 
training, still at the basic level, focused at the junior 
officer. But, those are--those have been put in place--the 
first one was put in place in 2012, second one in 2014.
    Senator Kaine. I don't want to, obviously, predetermine 
what the results of the investigation will be, but I just want 
to make sure. Is the scope of that initial training--you know, 
6 months, to online, to 8 or 9 or 12 weeks--is the scope of 
initial training going to be part of the investigation that's 
being done?
    Admiral Richardson. Specifically called out in the 
comprehensive review----
    Senator Kaine. All right.
    Admiral Richardson,--to look at individual training and 
professional development.
    Senator Kaine. If I could, one last question. There is a 
blog forum that is used for discussion, often by surface war--
surface ship officers. It's called Commander Salamander. There 
was a notable blog entry, a resignation letter--an anonymous 
resignation letter that just came to my attention late last 
night. It was published in November 2008, and here is a portion 
of the letter, ``The problem of checking the boxes, vice 
actually being a capable Navy, exists everywhere. Lessons 
learned and codifications of best practices have led the Navy 
to being a force focused on the checklist as the end state, 
vice actually capability. As one example,'' comma, ``Afloat 
Training Group, ATG, does not care that a ship has a method to 
ensure safe navigation.''
    I would like to provide that as a--as an exhibit to my 
question and, again, just ask if early warnings like this will, 
in fact, be part of the scope of the investigation that is 
being conducted.
    [The information referred to follows:]

    Admiral Richardson. Senator, no stone unturned. We will 
look at every indication we have and address that.

    Admiral Richardson. Senator, no stone unturned. We'll look 
at every indication we have, and address that.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Senator Reed. Thank you, Senator Kaine.
    For the benefit of all that are here, we have a vote 
ongoing, and that is why my colleagues have left. They are 
going to vote, and they will return.
    With that, let me seize the opportunity to begin a second 
round, which hopefully will have only one questioner. But----
    Admiral Richardson, I know the Navy has put together the 
Optimized Fleet Response Plan. That's the idealized way to 
schedule ships and to inform crews and to synchronize training. 
But, when it impacts against the reality of delays in many 
different ways, it doesn't seem to work. Are you looking, in 
this review, at that Optimized Fleet Response Plan and how 
useful it is today, or how it might be altered or changed?
    Admiral Richardson. Sir, we are. But, I would say that, I 
think the Optimized Fleet Response Plan has been somehow 
misunderstood to be a rigid, unresponsive thing. It's actually 
very fluid, and it's a--it's just a process by which we 
generate forces for deployment. For instance, if a maintenance 
period, let's say for the carrier, goes long, you know, the 
rest of the process will be adapted to accommodate that delay. 
If more training is required to get through the basic phase, 
we'll adjust. This is not a one-size-fits-all, ``This is what 
we do, and nothing else.'' It's actually a pretty fluid plan. 
It tries to get the maintenance done, get the manning onboard 
early in the process, so those people that we train are 
actually the ones that we're going to deploy with. There's a 
sort of a crawl-walk-run approach to training. All that is 
adaptive to the circumstances on the ground.
    I just wanted to try and make that impression----
    Senator Reed. Thank you.
    Admiral Richardson.--that there is room for flexibility 
within the OFRP to accommodate for change.
    Senator Reed. Thank you.
    Mr. Pendleton. Senator Reed, can I add something?
    Senator Reed. Mr. Pendleton, yes, please, and then I'll 
recognize Senator Ernst.
    Mr. Pendleton. Yeah. So, we looked at the Optimized Fleet 
Response Plan, and we looked at the Navy's plan for readiness 
rebuilding, and everything the Admiral said is--about it is 
true. There's really two things I'd want to leave with you. 
One, the Navy's plan for readiness recovery is predicated on 
the Optimized Fleet Response Plan, which is four words for 
``schedule.'' That's because that's what it is. Staying on 
time, that they--they're able to do that, and that's difficult 
when you have delays, or whatever.
    The forward-deployed naval forces in Japan, part of the 
reason we made the recommendation that we made is, we didn't 
see a similar plan like that for those ships over there. There 
was not dedicated training time. There were not the things that 
we thought would be needed to be--create a sustainable 
situation.
    Senator Reed. Thank you.
    Admiral Richardson. Sir, if I could.
    Senator Reed. Yes, sir.
    Admiral Richardson. Mr. Pendleton has it exactly right, and 
so, if you look at the plan for forward-deployed naval forces, 
there is a dedicated time.
    Senator Reed. Right.
    Admiral Richardson. That's the plan. But, the GAO, 
rightfully, looked at execution data.
    Senator Reed. Yeah.
    Admiral Richardson. It's hard to determine adherence to 
that plan, because we just kind of prioritize getting out and 
executing the mission. The thing that would fall off is the 
dedicated training.
    Senator Reed. Thank you. Thank you both, gentlemen.
    Senator Ernst, please.
    Senator Ernst. Thank you, Senator Reed.
    Gentlemen, thank you for being here today.
    First, as well as a number of my colleagues has done, I 
want to express my sincerest condolences to the families of 
those that lost sailors in these very, very tragic incidents. 
My thoughts and prayers will continue to be with you through 
this difficult time.
    Secretary Spencer, Admiral Richardson, and Mr. Pendleton, 
thank you for being here today. These are difficult topics that 
we're discussing, and I hope that we're able to really shed 
some light on what's going on, and truly do get to the bottom 
of this so it doesn't happen again.
    Mr. Pendleton, I want to follow up about the 100 hours per 
week, as Senator McCain had asked earlier. The GAO report found 
that sailors were working more than 100 per week, leaving them 
little time for rest. I know we have that can-do attitude. 
Admiral, you have stated that already. I know many even of our 
operators in the Army, they want to fulfill a mission, they're 
not going to say no. But, it's obvious that this is detrimental 
to our readiness. Can you talk about how that excessive 
workload has the ability to not only impact morale, 
recruitment, and retention, but also then the safety and well-
being of the other sailors on those vessels?
    Admiral Richardson. I'll start, ma'am, and let Mr. 
Pendleton pile on.
    There's no doubt that overworking a team, particularly over 
time, has an absolutely corrosive effect. We actually have 
specialists in this area, Dr. Nita Shattuck, at the Naval 
Postgraduate School, who has pointed out, in very clear terms, 
the need for getting sufficient sleep and getting rest in a--
you know, a 24-hour rhythm to get the most effectiveness out of 
that sleep. If we go beyond that, there are measurable 
degradations in your decisionmaking and in your performance. We 
need to make sure that we adjust back. Surface forces just 
recently mandating, now, that they do their at-sea rotations 
consistent with these, you know, rest principles.
    But, to the GAO's point, we also need to make sure that our 
in-port workload is examined. As I said, we just did this for 
the destroyers, and found that, while there are no extra skills 
that are required, the capacity in port sometimes exceeds our 
at-sea manning models, and so, we're making adjustments.
    Senator Ernst. Thank you. Thank you, Admiral.
    Mr. Pendleton. So, everything the Admiral said, I think's 
very honest and reflects the situation out there. One thing I 
would mention to the committee is that, under the current 
criteria the Navy uses, that they expect the sailors to 
actually work 81 hours a week--70 hours on duty, and then 11 
hours for the other things. So, it's a pretty grueling schedule 
programmed right in. I think what's happened, it's--this has 
snuck on them a little bit over time. It's the--because it 
takes more work to keep the ship running, and so, they end up 
with folks working 15--over 15 hours a day, on average.
    I don't have a lot of specific work. I'm citing a Navy 
study. But, some of the folks sitting behind me, and they work 
with me, have done literally dozens of focus groups. I don't 
think that they didn't hear this in any single one. Everyone 
talked about the lack of sleep and the impact on them, and some 
of them said they wished for 100-hour week. So, I think it's 
pretty tough out there.
    Senator Ernst. It is tough out there. One thing I would 
emphasize, though, that that is a commander's responsibility, 
is to make sure that they are able to react when the time calls 
for it. You know, as a lowly company commander running 
transportation operations, in combat operations we're only 
required 4 hours of sleep for our soldiers that are driving 
trucks. Of course, every one of them would say, ``I can go 24 
hours a day,'' but we know, as commanders, that you can't keep 
pushing our soldiers, sailors, marines, and airmen to the limit 
and expect them to operate efficiently and safely.
    Mr. Spencer. If I may, Senator, I'd be remiss if I didn't 
jump in here and address an issue that, when you hear about our 
studies, we're going to be coming back to you all to ask for 
some relief in certain areas. The secretariat, my office, the 
CNO, and the Commandant of the Marine Corps are reviewing 
instructions to make sure that we are focused on readiness and 
lethality, going forward. Those instructions that do not 
support readiness and lethality are going to be questioned and/
or asked to be reviewed by you all. It's what I call ``the 
rucksack issue.'' The best intentions of the world are handed 
down by folks to say, ``Can you add this? Can you add this?'' 
Well, no one's taking anything out of the rucksack. That's what 
we need to address right now, and that's what's going on.
    Senator Ernst. Absolutely. As my adjutant general in Iowa 
always said, it's ``assume prudent risk.'' That's what we want 
to enable our commanders to do, is assume that prudent risk. 
However, sometimes it's not prudent, and we should reject that.
    So, thank you very much, gentlemen.
    Senator Reed. On behalf of Chairman McCain, Senator Warren, 
please.
    Senator Warren. Thank you, Mr. Chairman.
    I want to say to all of our Navy families who have lost 
loved ones, thank you for being here today. We grieve with you, 
and we owe you an explanation of what happened. I know our 
leadership feels the same way.
    Admiral Richardson, in the last year, the Navy has had four 
incidents involving the loss of life or injury. In three of the 
four, the ships involved were home-ported overseas. In fact, 
all in the same port, in Japan. GAO found that the Navy counts 
ships home-ported overseas as being in, quote, ``permanent 
deployment status'' resulting in fewer training hours for 
sailors. In fact, in 2015, GAO found there were no dedicated 
training periods at all for ships home-ported in Japan. The 
Navy concurred with the GAO's recommendations, and reported 
that it had developed revised operational schedules. But, as 
recently as August--that's 2 years after the report, August of 
this year--Pacific Fleet officials told GAO that the revised 
schedules were, quote, ``still under review.''
    Now, Admiral Richardson, 2 years is a long time. So, what's 
the holdup here?
    Admiral Richardson. No, there's no excuse for that. We're 
investigating how that gap opened up. There's nothing 
defensible I can say for that.
    Senator Warren. Okay. I assume we're going to find a way to 
close this----
    Admiral Richardson. We are.
    Senator Warren.--quickly now?
    Admiral Richardson. Absolutely.
    Senator Warren. So, let me just keep asking, though, about 
where things have gone wrong. At the time of their respective 
incidents, did the crews of the Fitzgerald and the Antietam and 
the McCain have up-to-date warfare certifications?
    Admiral Richardson. Ma'am, many of them did not.
    Senator Warren. Of the three, do you know how many had up-
to-date----
    Admiral Richardson. Well----
    Senator Warren.--certifications?
    Admiral Richardson.--I can get you the exact number. 
There's a number of different certifications. I'll provide that 
exact number for the record.
    [The information referred to follows:]

    Admiral Richardson. As of August 1st, the USS Fitzgerald 
held 7 of 12 Tier 1 certifications, to include navigation, and 
held no Tier 2 certification; USS Antietam held 7 of 12 Tier 1 
certifications including navigation, and 1 of 9 Tier 2 
certifications; and USS John S. McCain held 11 of 12 Tier 1 
certifications, to include navigation, and 4 of 10 Tier 2 
certifications.

    Admiral Richardson. But, all three of them, because it was 
pervasive in the forward-deployed naval forces----
    Senator Warren. Do you know, offhand, what percentage of 
our overseas home-ported fleet currently has expired warfare 
certifications?
    Admiral Richardson. Just about every ship has some element 
of their certification expired. That can be managed. If it's 
one thing and--an advanced warfare mission, for instance, they 
just don't assign them to that mission. Where it becomes 
troublesome is that--if it becomes too many areas, and 
particularly in those areas that are directly related to safe 
and effective operation, the fundamentals.
    Senator Warren. Right.
    Admiral Richardson. That's when it becomes of great 
concern.
    Senator Warren. So, it--the GAO reported, just last month, 
that 37 percent of cruisers and destroyers home-ported in Japan 
had expired certifications in 2017. Does that sound about right 
to you?
    Admiral Richardson. I'll leave it to Mr. Pendleton to do 
the math, but that does sound about right.
    Senator Warren. Okay. So, let me just ask, Admiral 
Richardson, do you believe it's irresponsible to allow our 
sailors to deploy repeatedly on cruises without the training 
they need to ensure the safety of the ship and its crew?
    Admiral Richardson. Yeah, what had happened in those areas, 
ma'am, is that when the team out there was conscious that these 
certifications were expiring, and it's a bit like your driver's 
license expiring, it may not necessarily mean that you don't 
know how to drive anymore; it's just--you know, there's--that 
expire. However, we do need to recognize that those 
certifications mean something.
    Senator Warren. Yes.
    Admiral Richardson. They need to go back and recertify. 
What had happened instead is that they would do an evaluation, 
just like I discussed, and said, ``Okay, well, the 
certification is expired. We're not going to get a time to get 
onboard and do the certification for some time, and so we'll do 
a discussion or an administrative review to extend that.'' That 
was called a risk mitigation plan. That became pretty 
pervasive. It was this, kind of, boiling-frog scenario that, 
over time, over the last 2 years, really, became acute.
    To answer your question yes/no, yes, it is irresponsible. 
But, I just wanted to give you a sense for how that came about.
    Senator Warren. I appreciate that. What I'm hearing you say 
is that you're conducting a thorough review. This is not going 
to happen in the future.
    Admiral Richardson. We'll get this right.
    Senator Warren. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain [presiding]. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    First, let me begin, as many of my colleagues have, in 
offering condolences to the family/friends of those who have 
lost their lives and those who have been injured. It's 
difficult to put ourselves into your shoes. I just simply offer 
to you that, while we can't take away the pain that you feel, 
we'll most certainly keep you and your loved ones in our 
thoughts and in our prayers. It also means that, as this 
committee, we feel a real responsibility to try to share what 
happened, and not only that, but why.
    I think both Senator Ernst and Senator Warren have hit on 
something here which is very important, which is, we talk about 
the manpower and the number of hours that these soldiers have 
been serving, and whether or not they've actually been able to 
do the training and so forth. Seems to be a consensus growing 
that we needed to have more resources available to do more 
training, to do the retraining, to allow these individuals to 
operate at as close to a peak efficiency as possible. That 
takes money, and it takes resources.
    My question, to begin with, would be to Mr. Pendleton. Does 
the Navy have the ability to shift resources, if they were to 
be available, from programs involving modernization to 
readiness?
    Mr. Pendleton. That would be tough, there's a lot of 
fungibility within the operations and maintenance accounts. 
That's not my specialty. There's limits on the modernization. I 
probably should get the Admiral or someone to commend on that. 
I mean----
    Senator Rounds. That would be fine.
    Admiral Richardson. Senator, a programming shift of that 
type would probably require us to come back to Congress with an 
above-threshold reprogramming request, and that would need to 
be adjudicated to make that happen, it's not easy.
    Senator Rounds. The reason why I ask is that it seems to me 
that we're almost--it's almost like squeezing a balloon, in 
some cases. When we start talking about moving resources, even 
if we could move them, we're still talking about the limited 
resources brought about by sequestration and limited budgets 
that all of our Armed Forces are suffering with right now. If 
we take a look at the readiness side and the modernization 
side, we've got, just within the Navy itself, some of the best 
examples that we are going to continue to remind you of, our 
three nuclear-powered submarines that are sitting at dock, as 
opposed to being in depot, because we don't either have the 
depot space or the dollars in order to actually get them back 
up and operational. Billions of dollars in assets that are not 
at the ready. In fact, they're not even dive certified. You've 
got over 60 percent of your F/A-18s that need maintenance or 
that simply aren't operational at any given time.
    So, this is a case of, even if we could move resources 
around, we have limited resources available throughout the 
different plans, not for upgrades, but just for maintaining the 
additional equipment, let alone coming back in and trying to 
find the additional manpower dollars so that we've got 
individuals who are on deployment that actually have the time 
to be trained, as well, in a perfect operating system.
    Just curious whether or not--it is sequestration which is 
causing a lot of this, but I'd like each of you to please 
respond, if we could. Just how much of this problem that we've 
now seen is caused by a failure to properly fund the military 
in the first place with regards to not only modernization, but 
readiness, as well?
    Mr. Spencer. Senator, I'd like to dive in first, here. I 
want to carry on your analogy. It's not a balloon. Or, if it's 
a balloon, it's a balloon that is so pressurized, there's no 
movement. You squeeze it, it pops. That is the extent that I'd 
see it, coming at it from a business point of view. The funding 
balance-to-asset allocation here is way out of whack, and we 
have to get that back on track. There's other things we have to 
do, but, if we're addressing the financial resource side right 
now, there has to be some adjustments, because the balloon is 
at exploding pressure.
    Senator Rounds. Admiral Richardson?
    Admiral Richardson. Sir, I think the Secretary 
characterized that completely accurately. There's not a lot of 
room to maneuver. You're really robbing Peter to pay Paul, as 
you pointed out, and when I think of what the navy the Nation 
needs, it's naval power, which is, yes, readiness, safety, 
effectiveness, first and foremost; it includes modernization, 
and it includes, you know, procurement, to make sure that we 
stay relevant into the future.
    Senator Rounds. You took my ending quote away, Admiral. 
That's exactly the way that I was seeing this. But, I--let me 
end with this.
    To the families that are out there, I know that our focus 
right now is on the leadership within the Navy and the 
commanders in the Navy and what they want to do about it. This 
goes deeper than that. This is a case of where the
    United States Congress has to provide the adequate funding 
to take care of these young men and women who put themselves in 
harm's way every single day. We will not forget that.
    Thank you, gentlemen.
    Thank you, sir.
    Chairman McCain. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Thank you, to our witnesses here today.
    Chairman McCain. I just wanted to recognize that the Master 
Chief Petty Office of the Navy is here, also, Chief Giordano. 
Thank you for your leadership. Thank you for being here.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Again, thank you, to our witnesses, for testifying on this 
very important issue.
    I want to add my condolences to all of the families who 
lost loved ones in these very tragic accidents, as well. One of 
those sailors, who is from Michigan, Electronics Technician 
Third Class Kenneth Aaron Smith, our prayers and thoughts are 
with him, with his family, as all of the sailors who lost their 
lives.
    Director Pendleton, I certainly appreciate your report and 
your testimony here today. I just have kind of a 
straightforward question, just to get some clarity as to 
priorities that we need to be thinking about, in order to avoid 
more of these incidents in the future. Just a question, if you 
traded places with either of the gentlemen who are sitting next 
to you, the Chief of Naval Operations or the Secretary of the 
Navy, in your mind what would be the first steps that you would 
take?
    Mr. Pendleton. You know, I think our recommendations lay 
out a pretty good roadmap. We thought about this a lot, back in 
2015. Specific to forward-deployed naval forces, I think you've 
got to make time for them to train. You've got to make space in 
the schedule for them to actually train and get those 
certifications. Those are--the trends and that's what's 
concerning.
    The second--which I think the Navy's doing both these 
things now--is, you need to assess whether or not increasing 
reliance on overseas-based ships is the best call, because that 
comes at cost, and some of them may be hidden.
    So, those would be the two things that I would focus on, 
specific to the Navy.
    Senator Peters. You mentioned, in your opening testimony, 
about a plan, the readiness plan, that we need to continue to 
demand that. Would you please elaborate on those comments?
    Mr. Pendleton. So, in--last year, in 2016, we looked at the 
readiness rebuilding plans of all the military services, 
including the Navy, as well as how the Department of Defense 
was overseeing it. We came away with the conclusion, not to put 
too fine a point on it, that they didn't have a comprehensive 
plan for how they were going to go forward. There was a lot of 
recognition of the problem, a lot of priority being assigned to 
it, but what we couldn't see was, if you put money in, how much 
readiness were you going to get out? There was also the 
question of how you were going to manage the demands.
    So, what we suggested, hopefully was practical: What are 
your goals? In some cases, the goals weren't clear to us. You 
know, how are you--what are you--how much are you going to be 
able to get next year and the year after? What's it going to 
cost? How long is it going to take? Those kinds of things. 
Because our concern was, we would look up in 5 years and be in 
the same situation.
    Senator Peters. The concern that was expressed by Senator 
Ernst and I last year--in fact, we sent a letter to Secretary 
Mabus--concerned with individuals and the Navy's dependence on 
electronic devices for navigation. I know we don't know the 
reason for these incidents and the accidents, but sometimes 
over-reliance on electronics can lead to some problems. When 
you think about the warfare of the future, a conflict in a 
space, we could have--GPS systems could be compromised, 
communications systems could be compromised. All sorts of 
issues could be related to that. There is a sense that we need 
to make sure that we're training our sailors in good old-
fashioned seamanship, which means navigating the old-fashioned 
way, with charts and other types of navigational aids that were 
done before electronics, and make sure that there are eyeballs 
out to the sea at all times, not just relying on the 
electronics.
    Secretary Spencer and Admiral, if you could comment on how 
are we ensuring that our sailors continue to have their 
seamanship abilities and not relying on electronics? 
Particularly, my understanding is that ships with certified 
electronic navigation systems are not even required to have 
charts onboard. Is that something that we're looking at?
    Mr. Spencer. Senator, it's a great question. I was 
heartened, the other day when I was down at the Naval Academy 
and Admiral Carter did what he should do in his command to put 
the arm on me to find some more money for the Academy, but he 
was talking specifically about the training that goes on with 
the yard boats, I believe--YPs, boats, where they actually--
midshipmen go out and actually practice shipmanship in the 
reality, along with celestial navigation. We need to fund these 
things on a continual basis. It's easy to say, ``These are 
things of the past. Why can't we kick them to the curb?'' But, 
you bring up some very salient points about what happens when 
we're denied access to certain technologies.
    That being said, I certainly don't want to shortchange the 
advances that we get from technology. Being a pilot, we're now 
bringing iPads into cockpits, and doing away with paper charts. 
There are risks there, but I believe what--the FAA has even 
come to the conclusion is, the technology benefits outweigh the 
risks.
    Admiral Richardson. Sir, if I could just pile onto that, it 
is really about reliability. If we are going to shift to an 
electronic-based system, part of that reliability is making 
sure that the operators understand the underlying principles of 
that display that they're getting, and they are ready to 
question the validity of that display when they--things don't 
look right. To understand whether it looks right or not, you've 
got to have the fundamental training in relative motion, 
navigation, et cetera. It's extremely important to make sure 
that we've got that in place. As the Secretary pointed out, 
we're instilling that at the Naval Academy. It'll be part of 
our comprehensive review, to make sure that we're continuing 
that in the Officer and Enlisted Development Programs.
    Senator Peters. Thank you, gentlemen. Appreciate it.
    Chairman McCain. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here.
    To the family members, friends, and fellow sailors, I offer 
my condolences.
    Admiral Richardson, Senator Cotton mentioned something I 
think's very important. He said you're going through the 
investigation to get into the root causes of the incidents 
we're discussing today. But, he made a very important point 
that I doubt seriously gets covered--and, Director Pendleton, 
this may be something for you, as well--and that's really 
actions or inaction by Congress that are some of the root 
causes to these problems. Does that ever really weigh into any 
of the investigations? In other words, you may find out that 
decisions were made that actually led up to the circumstances 
that happened on that ship, but it could have been something 
that could have been avoided if funding--if we had done our job 
right. Does that ever weigh into any of these investigations, 
or is that something that the GOA--GAO would ever look at?
    Mr. Pendleton. Probably not, in a microsense like that, but 
I will say that I think the way that plays out, actually, is in 
making choices of short-term versus long-term plans. If you 
look in our statement that we provided for the record, we show 
the Navy's plans to build ships kind of goes that way, and its 
personnel plan goes that way.
    Senator Tillis. Right.
    Mr. Pendleton. That's a straight out-year budget-projection 
problem, right?
    Senator Tillis. Yeah.
    Mr. Pendleton. You're trying to figure out how to squeeze a 
lot of military into a can that's not quite as big as they'd 
like it to be, and so, you see these kind of mismatches happen.
    On the micro, not so much. It's usually hard to assess that 
out on it.
    Senator Tillis. Well, I think what we have to do is maybe 
take it up a notch and look at trend. Because the trends you're 
talking about, in terms of personnel and investments and ships 
and naval capabilities, are a direct result of what we either 
do or do not do up here. I think, sooner or later, we've got to 
start demonstrating that some of--Admiral Richardson's always 
here to say he's going to get the job done, but, at some point, 
because that balloon bursts, you simply can't get the job done.
    Admiral Richardson? I do have some other questions that I'd 
like to get to fairly quickly.
    Admiral Richardson. Sir, the--our investigations really 
concentrate on what is within our span of control. We get the 
resources that you give us, and it's our responsibility, and 
the responsibility of command, to take those resources, operate 
safe and effectively.
    Senator Tillis. I expected the answer to that, at the level 
you're dealing with, with the incident, but we really have to 
get Congress to be more aware of how our actions or inactions 
are a root cause to some of these problems.
    I want to ask some questions--we're going to submit 
several, probably, questions for the record, in my capacity as 
the Personnel Subcommittee Chair, but I want to go back, maybe, 
and ask the question--you know, being a captain--for a cruiser 
or a destroyer, I think is a relatively complex job. Would you 
agree with that, Admiral Richardson?
    Admiral Richardson. Yes, sir.
    Senator Tillis. Now--I think that Chair McCain mentioned 
his concern with, maybe we're getting more breadth and not 
enough depth as we're training up men and women to fill these 
roles. One question that I have, If you have the average 
length--assignment length for a CO [commanding officer] on each 
of these ships to be 1.8 years, and a commander to be 18 
months, are we kind of tightening the length of time that we're 
actually giving these people an opportunity to get that depth 
of experience before they're put in a command role? Do you 
think that that's an okay thing, or something that we should 
look at?
    Admiral Richardson. Well, we need to make sure that we've 
got an adequate sea time, right? Really, time on the ship, 
operating, not only in command, but throughout their career, so 
that, by the time they get to command, they've got the 
experience and training required to have those instincts that 
will serve them so well in command. That pipeline is a part of 
this comprehensive review.
    To be honest, sir, we look at that constantly. It's not 
like we're waking up, you know, from a long sleep, here. But, 
we need to give it a fresh look as part of the comprehensive 
review.
    Senator Tillis. But, if you've got an XO [executive 
officer] and a CO on the same ship, and sequential assignments, 
and then you've overlapping some of that, how does that help?
    Admiral Richardson. I'm not sure it does. So, this is a 
question that--a specific question that I have. This XO/CO 
fleet-up plan that we put in place for the surface Navy, I want 
to make sure we examine that closely.
    Senator Tillis. One other quick question. As I said, I've 
got a number that I'm going to submit for the record--but, do 
we have a surface warfare community retention problem?
    Admiral Richardson. There's nothing really that's been 
brought to my attention for the community, writ large. The 
exception would be nuclear-trained surface officers. That's a 
community under particular pressure that we watch very closely.
    Senator Tillis. It looked like the Center for Naval 
Analysis suggested that the demand may be outweighing the 
supply, so I was just trying to get to the root cause of why 
that is and whether or not retention was a part of it.
    My time is expired. We'll submit a number of questions for 
the record.
    Thank you.
    Mr. Spencer. Mr. Chairman, could I provide one more answer? 
Would that be possible?
    Senator, addressing your question about staffing on the 
bridge, et cetera, and career advancement, one of the things 
you're going to see coming out of my study is exactly that. 
We're going to look at DOPMA [Defense Officer Personnel 
Management Act], we're going to look at joint service, we're 
going to look at any and all aspects, at the higher level, and 
that addresses exactly what you're talking about.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chairman.
    I--while in no way denigrating all the discussion that 
we've had today about staffing and training and adequacy and 
hours of work--I think all those are contributors, but I'm 
surprised--I want to turn to an entirely different subject. 
Every boat in the Gulf of Maine has a radar on it that tells us 
when there's another boat within a mile or 2 miles or 5 miles. 
An alarm goes off that shows up on your GPS. How in the world 
does a billion-dollar destroyer not know that there's a 
freighter closing in on it? I don't understand how this could 
possibly happen. I've talked to Maine lobstermen. They're 
scratching their heads. They can tell when there's a flock of 
seagulls off their bow.
    Admiral Richardson. Sir, got the same questions. It's very 
hard to understand, with the sophisticated systems onboard 
these warships, that we let a ship get in that close, to the 
point of collision, and so, that is a direct----
    Senator King. Not ``a ship.'' Three ships. Three of these 
were collision with----
    Admiral Richardson. Right.
    Senator King.--with merchant vessels.
    Admiral Richardson. Yes, sir.
    Senator King. I mean, can you give me an answer, 
specifically? Aren't there radar systems----
    Admiral Richardson. There are.
    Senator King.--on these ships----
    Admiral Richardson. Yes, sir.
    Senator King.--that would detect anything within the range?
    Admiral Richardson. The primary--There's a primary and a 
backup radar that should detect those ships. There are systems 
that can alert you at a particular range, and so, we have to 
find out what happened.
    Senator King. Is there a black box on these ships, like 
there is on an aircraft, so we can determine what the sequence 
of events was?
    Admiral Richardson. We'll get to the sequence of events, 
yes, sir.
    Senator King. The second question is, Don't we have sailors 
on the bridge with binoculars----
    Admiral Richardson. We do.
    Senator King.--anymore?
    Admiral Richardson. It a requirement to have lookouts, and 
we have lookouts on the watch team on the bridge.
    Senator King. Is there--and the other question is about the 
radar of these ships that ran into us. Is there some technology 
that they couldn't see us? Are these--are we using a stealth 
technology that--anything you can answer in an open setting?
    Admiral Richardson. Sure. I mean, it's--wouldn't surprise 
anybody, I think, that we design our warships to have a lower 
radar cross-section. I mean, it's, in some, designed to be very 
low. Right? So, the--that degree of stealth makes us more 
effective, from a warfighting standpoint. But, that also 
imposes a burden, if you will, on the crew of that ship to 
understand that they are low-observable and that they may not 
be as easily seen as something that is as large as a destroyer. 
It'll have a radar cross-section of a ship that's much smaller.
    Senator King. Or if they're not in a conflict situation, to 
emit some kind of signal to a--to another----
    Admiral Richardson. That's been an immediate action, is 
that there is this Automatic Identification System, AIS, that 
the Secretary mentioned. We had, I think, a distorted 
perception of operational security that, if we kept that system 
secure--off in our--on our warships. One of the immediate 
actions following these incidents is that, particularly in 
heavily trafficked areas----
    Senator King. In trafficked areas, like----
    Admiral Richardson.--we're just going to turn it on.
    Senator King.--like Japan.
    Admiral Richardson. Then you can--right, you can look 
outside and see the ship, and so, it's not an operational 
security----
    Senator King. So, you can't report to us today any results 
of the investigation into what happened with the 
nonperformance----
    Admiral Richardson. Those----
    Senator King.--of the radar system.
    Admiral Richardson. Those specifics are forthcoming.
    Senator King. Forthcoming soon?
    Admiral Richardson. As soon as the investigations are 
complete, yes, sir.
    Senator King. All right.
    Let me turn from this subject, for a moment, to 
maintenance. I think the testimony from our friend from the GAO 
was that the maintenance capacity is not adequate, and that, 
therefore, we have ships that are in port too long, and that 
puts a strain on the ships that are left at sea. Is that 
accurate?
    Admiral Richardson. I think Mr. Pendleton painted that 
exact picture. The words he used were ``vicious cycle,'' and I 
would agree. That's a good characteristic of that.
    Senator King. Because these ships are expensive, as you 
know, and anytime you have a capital object that's that 
expensive, Secretary Spencer, you know from your business 
experience, you want it operated. Do we need to be talking 
about increasing the capacity of the maintenance yards to cut 
down on that time off the ocean, if you will?
    Admiral Richardson. I'll go first. I think that there's no 
doubt that we could use the increased maintenance capacity. 
Right now, we are leveraging every ounce of capacity, I think, 
across the Nation, both public and private, to execute the 
maintenance that we need----
    Senator King. But, if we're doing--if we're executing on 
every ounce of capacity, and it's not adequate, sounds to me 
like we need more capacity.
    Admiral Richardson. We need more, yes, sir.
    Senator King. Is that in the plans anywhere? Is that in any 
submissions of budgetary priorities in the future?
    Admiral Richardson. One of the other reports that Mr. 
Pendleton just recently issued was a report on our shipyards, 
and so, how to increase the capacity through modernizing our 
shipyards. We work closely with the private sector to have 
these discussions all the time, in terms of: How do we increase 
that capacity, so, it's something that has our attention, yes, 
sir.
    Senator King. One final question on the technology. I would 
urge that a standard practice ought to be for these locational 
radar, that keep an eye on what's in the vicinity, that if 
there--(a) there should be an alarm, which I'm sure there is, 
and (b) it should ring in the captain's quarters if anything 
comes within whatever the set distance is. It's really 
unacceptable, in this day and age, with the technology that we 
have, to have something like this happen, regardless of the 
wider issues.
    Admiral Richardson. Now----
    Senator King. This is just unacceptable, from a--just a 
modern seamanship point of view, it seems to me.
    Admiral Richardson. Sir, I agree with you 100 percent. 
That's why I'm fighting the tendency to characterize this--I 
mean, certainly there are tearing-down forces that are broader. 
We've discussed many of those today. But, this will go to, you 
know, proper operation of your equipment, fundamentals of 
watchstanding. Those are the things that we have to look at.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. On behalf of the Chairman, let me 
recognize Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to join my colleagues in expressing my deepest 
condolences to the family and friends of the sailors we have 
lost in these incidents. We are grateful for the service, 
saddened by the loss. Extraordinary people.
    Mr. Chairman, thank you for convening this hearing. Both 
our military leadership and Congress have roles to play to 
ensure this doesn't happen again.
    Admiral, I just want to follow up on my colleague Senator 
King's questions. You mentioned that we'll get to the sequence 
of events and find out what happened. Do you have a timeframe 
for that? Because we saw a number of incidents, and the goal 
is, we want to do it faster right, but the faster we get the 
facts as to what happened, the better the opportunity is to not 
have it happen again.
    Admiral Richardson. Right. Senator, we're taking sort of a 
response along two timescales, if you will, sir, so we want to 
get the full investigation done with alacrity. We are doing 
that, and so, this fall, you know, timeframe, we'll get those 
complete. But, we're not waiting for those things to be done to 
act. There are a number of tactical immediate actions. I 
mentioned the Automatic Identification System. We're going to 
turn that on so that we're much more visible to other ships. 
Mandating that we perform both manual and electronic tracking 
of all other vessels that will come within 2-\1/2\ miles. We've 
got mandated commanding officer review and approval of the 
watchbills, the watchteams that will be doing that. So, there's 
a number of actions, my point being, that we are doing now to 
enhance the things that Senator King and you are talking about.
    Senator Donnelly. How many radar systems do you have on at 
a time? Are there----
    Admiral Richardson. There are----
    Senator Donnelly.--are there backups for----
    Admiral Richardson. For navigation and safety, two radar 
systems, a primary and a backup. Then there may be a third 
commercial radar that we use sometimes.
    Senator Donnelly. Were they working at the time of these 
incidents, on both ships?
    Admiral Richardson. Sir, I don't have those details, so 
we'll get to that.
    Senator Donnelly. Mr. Pendleton, in your statement, you 
identify a number of recommendations from past GAO reviews that 
the Navy has not yet implemented. Which do you consider the 
most urgent of those?
    Mr. Pendleton. I think--with respect to the forward-
deployed naval forces, I think carving out dedicated training 
time for them is going to be very important. So, that's 
probably my number-one. When you look broader than that and 
begin to give a urgent, not necessarily since it needs to be 
done today, but the Navy needs to determine how many people it 
really needs and put on the ships, because 100-hour workweeks 
are not sustainable. So, those would be the two I identify for 
you.
    Longer-term, I think the shipyards are going to be a real 
issue. We just issued the report that was mentioned. There 
needs to be a capital investment plan on the shipyards. We're 
going to run out of drydock space, and it's going to be hard to 
get out of this vicious cycle, sir.
    Senator Donnelly. Secretary Spencer, what do you look at as 
the most urgent things to implement right now?
    Mr. Spencer. I concur with training, but, when I put on my 
title 10 hat, I--we have to gear up on infrastructure. If we 
look at the maintenance cycles that we have here, if I'm not 
mistaken, Mr. Pendleton, our bill is $4.2 billion.
    Mr. Pendleton. I think it's actually $4.86, a little 
higher.
    Mr. Spencer. $4.86 billion to get our yards back in shape. 
We're going to have to do something to move that ball down the 
road.
    Senator Donnelly. Thank you.
    Admiral, as has been mentioned, 100-hour workweeks are 
unsustainable. I know you have personal experience from your 
deployments that you've had. What are we doing right now to 
change that paradigm of 100-hour workweeks and helping those 
individuals who are shouldering that burden right now, who are 
out in the field doing the very, very best they can to keep our 
Nation safe?
    Admiral Richardson. So, now all--the surface force, the 
submarine force, and the aviators all have mandatory sleep 
requirements now in place. The surface force just recently made 
that mandatory. It was recommended before. So, that will--you 
know, that will mandate that at sea, and those watch rotations, 
that we get sufficient sleep and get out of this cycle.
    The other thing is this--there is a cultural factor here, 
where, you're more dedicated, if you can go to the extra mile 
and stay awake. That's like pulling an all-nighter in college. 
I have two daughters in college, and, it's too common there as 
well. It's a combination of education and culture change to 
make sure that people are seeking this rest.
    Senator Donnelly. The last thing I want to ask is, as you 
do these investigations, very often, as I know you're aware of, 
the people who know the best as to how to fix it are the ones 
who are on the front line and who are right there on the ships 
or in the submarines. I want to know what we're doing to make 
sure we incorporate their ideas in how we move forward.
    Admiral Richardson. Yes, sir. It started with the 
operational pause. In my message for that, I mandated that 
those be small groups of sailors on the deck plate. Focus 
groups, I think, are the most effective way that I have seen to 
get after those types of concerns. It beats a poll or a survey 
or anything like that, and that'll be a fundamental part of our 
way going forward.
    Senator Donnelly. Thank you.
    Mr. Chairman, thank you.
    Senator Reed. Thank you very much.
    On behalf of Chairman McCain, Senator Sullivan, please.
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here, and your testimony.
    I also want to offer my condolences to the families. You 
know, this is just completely unacceptable, period. No debate 
about that. I don't think anyone's debating that. But, you 
know, when the men and women of our military do what less than 
1 percent of Americans do in this country, which is raise your 
right hand to support and defend the Constitution and keep us 
safe, we've got do a better job, all of us--the Navy, the 
Marines, the Army, the Congress. It's unacceptable.
    So, Admiral, I want you to know, I'm having a hard time 
with the--this issue, put us on the bridge of a modern Navy 
ship, and talk about the redundancies--the radar, the GPS's, 
the physical watch. What--I mean, I know you're investigating 
this, but what does that look like? Aren't we the most advanced 
navy in the history of the world? And how are these, 
redundancies, in terms of basic seamanship in collisions at 
sea, breaking down, in your view? It's not just one, you know, 
sailor on the watch. There is a whole host of other things that 
would make sure we avoid these kind of collisions. What, in 
your experience--first, what does that look like? What, in your 
experience, do you think is going wrong, where--obviously 
there's a series of failures here in these collisions, not just 
one. What does that look like? How can we better understand it?
    Admiral Richardson. Right. Sir, my experience is, just as 
yours, that these catastrophes really result from the 
accumulation of a number of small errors that build up and line 
up eventually to create a sequence that results in a incident 
of this magnitude.
    To put you on the bridge of a modern destroyer, a watch 
team will be on the order of ten people. About four of those 
will be officers--the officer of the deck, the junior officer 
of the deck, officer of the watch, conning officer. There will 
be two lookouts, there will be a quartermaster. There's plenty 
of people involved in the seamanship and navigation on the 
bridge. They're supported by a team in the Combat Information 
Center, which is also looking at electronic displays. They 
don't have windows, but they're backing them up.
    With respect to the technology that this--the equipment for 
all of those critical systems--navigation, steering, 
propulsion--we have a primary and a backup system for every one 
of those. So, GPS is backed up by inertial navigators. We have 
a primary and a backup radar. For the rudders--we have two 
rudders, and each of those rudders has a primary and a backup 
hydraulic cylinder. There's a lot of redundancy built into 
these systems, because they are so fundamental to safety.
    Now you get a sense--and it goes back to Senator Donnelly's 
question and Senator King's point, which is, how could all of 
that break down so catastrophically to result in a collision of 
this magnitude. That's why we have to do the thorough 
investigation.
    Senator Sullivan. Let me ask another question. You know, it 
comes to readiness, it comes to training. One of the things, in 
my relatively short time here in the Senate, that I've been 
concerned about with regard to military readiness is that this 
committee, this Congress, well-intentioned, puts additional 
training requirements--additional training requirements, 
additional things that you need to address, because we told 
you. To be honest, most of those don't relate to combat 
readiness, most of them don't relate to basic MOS [Military 
Occupational Specialty], whether it's a surface warfare officer 
or a marine infantry officer and his, you know, duty to close 
with and destroy the enemy of our Nation. How much of your 
training do you believe is being mandated by the Congress that 
takes you away from your basic MOS training? If there are 
issues with that, we would certainly like to know about it.
    Mr. Spencer. Senator, let me address that for you.
    Senator Sullivan. Do you think it's a problem?
    Mr. Spencer. It definitely is a problem. Not only will you 
hear from my report group as to any actions done at the Senate 
level or need to be adjusted here in this chamber or other 
chambers, you are going to hear from them. We're going to 
address DOPMA, we're going to address the Inouye amendment, 
we're going to address how joint chiefs task. We have given 
this committee an infinite rein literally to address 
everything. At the operational level, the secretariat, the 
OPNAV, the CMC [Commandant of the Marine Corps] are all going 
through their instructions, going, What are we focused on? 
We're focused on readiness and lethality. What do all our 
instructions support? If we find instructions that are not 
focusing us on those two items, we're going to bring them to 
your attention if you have control of them. If we have control 
of them, we're going to try to adjust this. It's the--it's as I 
said earlier, the rucksack issue. All the best-intentioned in 
the world, put a rock in to do a training on smoking cessation, 
put a rock in to do other sorts of training. No one's taking a 
rock out, and the rucksack's getting pretty damn heavy.
    Senator Sullivan. Well, I couldn't agree more.
    Admiral, I'm assuming you would agree with that. But, I 
implore you to bring those issues back to us, because we're--
there's only so many hours in the day, and the mission of the 
Navy--you know what that mission is. We need to make sure our 
sailors are trained in the best way possible. This rucksack 
issue you're talking about--as a reservist, myself--in the 
Reserves, it's even worse, because there's less time in a year 
to train. So, please bring those back.
    Again, my condolences to the families here. We need to fix 
this. I know you're committed to doing it. It's going to be an 
all-hands-on-deck effort. But, we cannot--cannot afford to lose 
any more of our Nation's finest in training accidents.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much.
    On behalf of the Chairman, Senator Blumenthal, please.
    Senator Blumenthal. Thank you, Senator Reed.
    Thank you all for being here today on a very difficult 
subject, especially for any of us from Connecticut. We lost two 
brave, courageous men, one on the Fitzgerald, the other on the 
McCain. I'd like to pay tribute to Electronics Technician 
Second Class Dustin Doyon and Sonar Technician Third Class Ngoc 
Truong Huynh, both from Connecticut. Their families mourn them, 
and all of us in Connecticut are struck by the sadness and 
grief of their passing and their courage in joining in devoting 
their lives to the defense of our Nation. We really owe them an 
investigation that's not only thorough and comprehensive, but 
also as prompt as possible.
    I am struck by a number of the questions and answers that 
have been elicited so far, in dealing with this intensely human 
tragedy in such an abstract way, which maybe makes it easier to 
address. But, I think most Americans find these crashes 
incomprehensible.
    So, let me begin by asking you, Admiral, Is there any 
indication, so far, that there was equipment failure on either 
the Fitzgerald or the McCain?
    Admiral Richardson. Sir, we're taking a look at all of 
that. That'll be part of the investigation. It's premature to 
say conclusively whether that contributed. But, it's not only 
the operating status of the equipment, but how it was operated. 
Was it being operated properly, in accordance with the 
procedures? You know, all of these things will be part of the 
result of that investigative look.
    Sir, I do also have to comment on how absolutely human this 
is to us. Every one of those sailors is like a son to me, and 
the opportunity to be with their families when they see them 
come back in these coffins makes it intensely human. We're 
going to get after this.
    Senator Blumenthal. By the way, I did not mean to imply 
that anybody on this panel, and particularly you, Admiral, who 
has devoted your life to the Navy and service and sacrifice, 
would feel anything but the most intense pain and grief as a 
result. Having a son who has served in the Navy, another in the 
Marine Corps, I know that, as a dad, I felt proud of the fact, 
not only that they were serving, but that they were surrounded 
by people who really cared for them. They were the best-trained 
and the most dedicated of any military force in the history of 
the world. Human error, as you've just pointed out, even with 
the best equipment, may result in failure to operate the 
equipment properly, which comes back to training.
    I have been told that since 2006, the Navy doubled the 
number of ships home-ported overseas to 20, obviously to 
increase its forward presence and reduce crisis response time. 
But, training was eliminated on these forward-deployed 
platforms. As a result, the number of expired certifications 
increased fivefold, from 7 percent to 37 percent, between 2015 
and 2017. Are those numbers accurate? I don't know whether 
they've been raised here before.
    Mr. Pendleton. Yeah, you're--most of that's coming from our 
work. The increase in overseas-based ships, I think, went from 
20 to 40, which was about 7 percent of the Navy to 14 percent 
of the Navy. The certification numbers that you described, that 
is from 2015 January until mid this year. If you imagine--the 
11 ships that are based in Japan, we looked at all the 
certification areas, 22 of them. When we looked at that in 
2015--imagine a bunch of little squares--7 percent of those 
were red. When we came back, in preparation for this hearing, 
37 percent of them were expired. Some of them, 2 years or more, 
and so, that was a trend that we alerted the Navy to and that 
we put in our updated work. For the most part, you have it 
right, but just wanted to make sure the specifics were----
    With respect to training, what we said is, they didn't have 
dedicated training time, unlike the ships--based in the United 
States. So, before a ship deploys from the United States, it 
has a train-up period. The folks overseas were pretty much just 
almost always deployed. Is that fair?
    Senator Blumenthal. In terms of what--those numbers mean, 
37 percent of those certifications were expired?
    Mr. Pendleton. Yeah.
    Senator Blumenthal. That means that----
    Mr. Pendleton. That means----
    Senator Blumenthal. Go ahead.
    Mr. Pendleton. Sorry. There's a----
    Senator Blumenthal. What does it mean?
    Mr. Pendleton.--periodicity to this. Every couple of years, 
or less, you have to be certified that you can do things: drive 
a ship, work your coms, everything--and in warfare areas, as 
well. So, that means that they had missed that certification 
time.
    Senator Blumenthal. Right. It doesn't necessarily mean that 
they were not competent to perform duties that they were doing, 
but it does reflect on the kind of training that was----
    Mr. Pendleton. The trend was of concern, as I think the 
Admiral has mentioned, as well.
    Admiral Richardson. I would just articulate that if that 
certification has meaning, then we've got to do the damn 
certification. We can't just walk by it and try and talk our 
way out, that, ``Hey, we're still proficient, even though the 
certs expired.'' That's just not an acceptable way to do 
business.
    Senator Blumenthal. Well, not acceptable, I agree. Thirty-
seven percent--and going from 7 percent to 37 percent in just 2 
years is pretty staggering.
    Admiral Richardson. Egregious.
    Senator Blumenthal. Thank you.
    Chairman McCain [presiding]. Senator Sullivan wants to have 
another----
    Senator Sullivan. Just two----
    Chairman McCain.--question.
    Senator Sullivan.--two quick ones, Mr. Chairman. Thank you 
very much.
    It was really a followup to Senator Blumenthal's question, 
which was the home port versus--the overseas-ported versus, 
kind of, CONUS [Continental United States] home-ported ship. 
The statistics that were just read, I think, are pretty 
striking. Admiral and Mr. Secretary, I know you're going to be 
looking at the specifics of these accidents and what 
specifically happened, but I think if you could also help 
address, kind of, the strategic elements--Is there something 
that we should be looking at that makes the overseas-ported--
ships that are based overseas, going through different 
training, different deployment cycles--if you can help address 
that issue, too, because it does seem like that's something 
that might be an element of this challenge. Do you agree with 
that?
    Mr. Spencer. Yes, Senator. Two things that have, 
regrettably, come out of this, as far as I'm concerned. Mr. 
Pendleton hit on metrics. I'm a true believer in metrics. We 
have to know what we're measuring and what we're looking at. 
This is a prime example of, can we get ourselves a dashboard 
that is very easy for, quote/unquote, ``management'' to look at 
the dashboard and have the appropriate indicators on there at 
any one time? This is what we need to do. We don't need to 
actually be having our hands and fingers into what's going on 
there. We have to have the first indicators on when to react 
and say, ``Uh-oh, trending in the wrong position, let's 
address.''
    If you look at the study that I have asked to be stood up, 
we are addressing the overall root causes of what's going on. 
The CNO is looking at tactical causes. We are going to be 
looking at root causes. We've asked people from BP [British 
Petroleum] North America to join us. They lived through the 
Deepwater Horizon tragedy and came out the other side with a 
very strong plan. We called the Maritime Academy and said, 
``Who is your poster child for maritime safety who's had an 
issue?'' They said, ``Speak to Crowley Marine. They had a bit 
of a rash. They have a great program now, called Road to 
Zero.'' Called Tom Crowley. He said, ``You're on it.''
    We looked at other situations that were out there. We 
called the Mayo Clinic. The Mayo Clinic has done 7 years of 
studies looking at high-pressure, team-oriented places. What 
they were looking at were operating rooms, where you had 
professionals--seven different teams of professionals, doing a 
lung transplant over a 7-hour period, and they degraded the 
whole thing, started over again, and said, ``How do we build 
this for optimum outcome?'' It came to such human behavior 
aspects as the anesthesiologist can go, ``Need a minute here. 
Everyone stop. I need to stabilize something,'' and had input 
and control into a situation of pressure and intensity that had 
one leader, but they had to actually culturally realign how 
they communicate with everyone.
    These are the kind of insights and people we're going to 
have working on our level to really see if we can have--we will 
have a plan to do corrective action.
    Senator Sullivan. Great. Thank you.
    Admiral Richardson. Sir, if I could pile on.
    There is a real benefit to having ships forward deployed.
    Senator Sullivan. Oh, I couldn't agree more. Don't get me--
--
    Admiral Richardson. We need to----
    Senator Sullivan.--wrong. I think it's actually critical 
that we have ships forward deployed.
    Admiral Richardson. For a number of reasons, that you're 
aware of. What we do need to do when we forward deploy ships, 
though, to Mr. Pendleton's point, is, we need to have a 
comprehensive understanding of what it takes to sustain that 
forward-deployed force from a maintenance, training, 
infrastructure standpoint, people, you know, the whole thing.
    Senator Sullivan. Yes. That's just what I'm requesting you 
take a look at that issue, as well.
    Thank you, Mr. Chairman.
    Chairman McCain. Well, let me just add. Admiral, I 
appreciate everything you're saying, but it doesn't take a 
study of RAND or Mayo when you're making people work 100 hours 
a week. Okay? It doesn't take any study. I don't have to ask 
RAND to look at it. I think I know what 100 hours a week does 
to people over time. That's been standard procedure for a long 
time. What are--why not declare a stop to--a halt to it right 
now? Right now. They should not be working 100 hours a week. 
So, I appreciate all our plans and all our remedies, but there 
are some of them that are just common sense, that don't require 
a study.
    I think the men and women who are serving in the Navy would 
like to see some immediate action taken. Seven-month 
deployments are a long time. Up til now, there have been times 
where those deployments have been a lot longer than that. Who 
is looking out for them? Who's asking them to stay in?
    I appreciate all the studies you've ordered, and all the 
assessments and all that. There are some that, all you have to 
do is use common sense and make some changes that would, 
obviously, relieve some of the strain. When somebody's working 
100 hours a week over a period of time, they're going to make 
mistakes. Any manager can tell you that.
    Mr. Secretary, I'm glad you have all these plans. I'm glad 
you're going to make changes. I'm glad you've got RAND and 
whoever the hell else it is that's studying it. There are some 
aspects of what we're subjecting the men and women who are 
serving, especially in the overseas deployment ports, that you 
could change--you could make the change tomorrow. What we would 
like to see is some significant changes. Fire a few people, 
that's fine. But, I'm not sure it relieves that individual 
who's still working 100 hours a week. One of the reasons why 
that person is working 100 hours a week, obviously, is because 
the enormous burden that have been placed on them, not only to 
do their job, but also a lot of additional requirements that, 
every time there's been a problem, ``Well, let's give another 
lecture, let's have another training session, let's have 
another test.''
    Again, I appreciate what you're saying, I appreciate what 
you're doing, but, I'd also like to see some immediate 
commonsense actions taken that--any manager, any leader will 
tell you that if you work somebody over 100 hours a week, 
you're not going to get an efficient output. There's many other 
aspects that are--of that are doing. If you deploy--if you keep 
deploying ships more than 7 months a year, you're not going to 
keep good people in the Navy. You're just not. They prefer a 
better life.
    Finally, speak truth to power. One of the reasons why you 
are having to impose these burdens and the extended deployments 
and the lack of readiness is because of sequestration. When you 
don't know from--as you mentioned, when you don't know in 
September what you're going to be doing in October, that's not 
right, and it's not fair. So Admiral Richardson, I'd like to 
thank you for your very frank and candid comments on that issue 
before this committee.
    I'd just like to finally say there are additional family 
members who are here, and I would recognized a group of them at 
the beginning, but I'd also like to thank them again, those who 
were not here at the beginning of the hearing. We thank you for 
your family's service and sacrifice. They will always be 
remembered. Your presence here renews and invigorates this 
committee's commitment to making sure that every single life of 
every single member of the United States Navy will be given the 
utmost protection and the utmost care and concern, and not 
allow situations to evolve that then make it likely that their 
lives are in greater danger.
    I thank the witnesses.
    Ask Senator Reed if he has any additional comments.
    Senator Reed. Mr. Chairman, I would simply join you in 
expressing profound condolences to the families, and also a 
profound commitment on behalf of the Congress and, I know, the 
Secretary and the CNO, to take the steps necessary to protect 
our men and women who wear the uniform of the United States.
    Thank you, Mr. Chairman.
    Chairman McCain. Hearing is adjourned.
    [Whereupon, at 12:21 p.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator James Inhofe
                      senate ndaa navy provisions
    1. Senator Inhofe. Mr. Pendleton, during my questioning in the 
hearing, I
referenced 14 specific additions to the Navy budget, and asked that you 
assess what they will do to alleviate Navy readiness concerns in both 
the short and the long term. Please assess the overall impact to Navy 
readiness for the following provisions:

      A.  $1.4 billion for procuring 10 F-35C fighters, which is $800 
million and 6 aircraft more than the administration's request

      B.  $25 billion for shipbuilding to fund 13 ships, which is $5 
billion and 5 ships more than the administration's request

      C.  $5.5 billion for Arleigh Burke-class destroyers, which is 
$1.9 billion more than the administration's request, including funds 
for 1 additional destroyer and $300 million for multiyear economic 
order quantity procurement.

      D.  $3.1 billion for Virginia-class submarine advance 
procurement, which is $1.2 billion more than the administration's 
request, including $750 million for multiyear economic order quantity 
procurement and $450 million for either a third fiscal year 2020 
Virginia-class submarine or initiatives to expand the submarine 
industrial base

      E.  $1 billion and incremental funding authority for either 1 
amphibious ship replacement (LX(R)) or 1 amphibious transport dock 
(LPD-30), which is in addition to the administration's request.

      F.  $661 million for 1 expeditionary sea base (ESB), which is in 
addition to the administration's request.

      G.  $250 million for 1 cable ship, which is in addition to the 
administration's request.

      H.  $509 million for 8 ship-to-shore connectors (SSCs), which is 
$297 million and 5 SSCs more than the administration's request.

      I.  $30 million for preliminary design of a smaller aircraft 
carrier, which is in addition to the administration's request.

      J.  $1.9 billion for procuring 24 F/A-18 Super Hornets, which is 
$739 million and 10 aircraft more than the administration's request.

      K.  $2.3 billion for procuring 13 P-8A Poseidon aircraft, which 
$1.0 billion and 6 aircraft more than the administration's request.

      L.  Authorization for multiyear contract authority and advance 
procurement for up to 13 Virginia-class submarines.

      M.  Authorization for multiyear contract authority and advance 
procurement for up to 15 Arleigh Burke-class destroyers.

      N.  Codification that at least a 355-ship Navy with the optimal 
mix of ships is official U.S. policy

    Mr. Pendleton. GAO has not assessed the specific readiness 
implications of the listed additions to the Navy's budget. Our recent 
and pending reports include observations and recommendations that 
suggest that buying additional surface combatants, amphibious ships, 
support vessels, and submarines could expand the current fleet size and 
potentially improve readiness by relieving some operational tempo 
pressure. To achieve sustained readiness gains, these investments have 
to be balanced with the Navy taking action to overcome challenges 
related to adequately manning, operating, and maintaining the current 
fleet. \1\ Without improved management, any force structure additions 
will likely experience similar readiness challenges as the current 
fleet.
---------------------------------------------------------------------------
    \1\ For an overview of these challenges, see GAO, Navy Readiness: 
Actions Needed to Address Persistent Maintenance, Training, and Other 
Challenges Affecting the Fleet, GAO-17-809T (Washington, DC: Sept. 19, 
2017) and GAO, Navy Readiness: Actions Needed to Address Persistent 
Maintenance, Training, and Other Challenges Facing the Fleet, GAO-17-
798T (Washington, DC: Sept. 7, 2017).
---------------------------------------------------------------------------
    Moreover, the Navy is unlikely to achieve its desired outcomes 
without improvements in the performance of individual shipbuilding 
programs. Within the shipbuilding portfolio, cost growth has 
contributed to the Navy buying ships at a lower rate than called for in 
its 30-year shipbuilding plans. Shipbuilding programs, such as the 
Ford-class aircraft carrier (CVN 78), San Antonio-class amphibious 
transport dock (LPD 17) and Littoral Combat Ship (LCS), progressed with 
unexecutable business cases in which ship construction began prior to 
demonstrating key knowledge, resulting in costly, time-consuming, and 
out-of-sequence work during construction and undesired capability 
tradeoffs. \2\ The success of additional force structure and future 
programs, such as a smaller aircraft carrier, will depend on the 
execution of realistic business cases that balance desired requirements 
with available resources. The Navy's future readiness will also depend 
on the decisions it makes to mitigate the consequences of unexecutable 
business cases for its recent shipbuilding programs. For example, the 
Navy continues to acquire Littoral Combat Ships, which will represent a 
substantial portion of the Navy's fleet for decades to come. However, 
it is critical that the capabilities and sustainment of these ships--
for which we have previously reported significant concerns--are 
sufficiently accounted for when making decisions on the future of the 
fleet. \3\
---------------------------------------------------------------------------
    \2\ See GAO, Navy Shipbuilding: Policy Changes Needed to Improve 
the Post-Delivery Process and Ship Quality, GAO-17-418 (Washington, DC: 
July 13, 2017) and GAO, Defense Acquisitions: Assessments of Selected 
Weapons Programs, GAO-16-329SP (Washington, DC: Mar. 31, 2016).
    \3\ See, for example, GAO, Littoral Combat Ship and Frigate: 
Congress Faced with Critical Acquisition Decisions, GAO-17-262T 
(Washington, DC: Dec. 1, 2016), GAO, Littoral Combat Ship: Need to 
Address Fundamental Weaknesses in LCS and Frigate Acquisition 
Strategies, GAO-16-356 (Washington, DC: June 9, 2016), and GAO, 
Littoral Combat Ship: Deployment of USS Freedom Revealed Risks in 
Implementing Operational Concepts and Uncertain Costs, GAO-14-447 
(Washington, DC: July 8, 2014).
---------------------------------------------------------------------------
    Further, the condition of newly constructed ships when they are 
delivered to the fleet has compromised fleet readiness. In our July 
2017 report, we reviewed six ships of different classes valued at $6.3 
billion and found that they were delivered to the Navy with varying 
degrees of incomplete work and quality problems. \4\ Although the Navy 
resolved many defects after delivery, as the table below shows, quality 
problems persisted and work was incomplete when the Navy turned over 
the selected ships to the operational fleet.
---------------------------------------------------------------------------
    \4\ GAO, Navy Shipbuilding: Policy Changes Needed to Improve the 
Post-Delivery Process and Ship Quality, GAO-17-418 (Washington, DC: 
July 13, 2017).

  Table: Number of Quality Problems or Defects at the Beginning and End of the Post-Delivery Period across Six
                                                 Selected Ships
----------------------------------------------------------------------------------------------------------------
                                                                                          At the time the Navy
                                                                     At delivery        provided the ship to the
                                                                                                  fleet
----------------------------------------------------------------------------------------------------------------
Significant construction deficiencies.......................                      363                        45
----------------------------------------------------------------------------------------------------------------
Systems not meeting minimal functional standard.............                      139                        54
----------------------------------------------------------------------------------------------------------------
Significant deficiencies in mission-essential equipment.....                   N/A\a\                        53
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of Navy documents and data. GAO-17-418
\a\ This information is not evaluated at delivery.

    Moreover, fleet officials reported varying levels of concern with 
the overall quality and completeness of the ships, such as with 
unreliable equipment or a need for more intense maintenance than 
expected. Such issues contributed to a maintenance backlog at the start 
of the ships' service lives and put pressure on already constrained 
maintenance funding.
    While we have not specifically examined the effect of additional F-
35 procurements on Navy readiness, our preliminary work on F-35 
sustainment across DOD indicates that accelerating procurements without 
addressing key sustainment challenges could result in further degraded 
readiness. Our preliminary findings, expected to be issued in a final 
report in late-October, show that DOD is currently sustaining over 250 
F-35s and plans to triple the number of F-35s by 2021, but is facing 
sustainment challenges that are affecting warfighter readiness. For 
example, DOD's capabilities to repair F-35 parts at military depots are 
six years behind schedule, which has resulted in average part repair 
times of 172 days--twice the program's objective. In addition, spare 
parts shortages are degrading current F-35 readiness. From January 
through August 7, 2017, F-35 aircraft were unable to fly about 22 
percent of the time due to parts shortages. These challenges are 
largely the result of sustainment plans that do not fully include key 
requirements or timely and sufficient funding. Our preliminary findings 
also show that DOD faces a funding shortage of approximately $1.5 
billion between fiscal years 2018 and 2023 for F-35 sustainment. 
Procurement decisions can also significantly affect sustainment 
outcomes. Accelerating purchases of F-35 aircraft without addressing 
key sustainment challenges would create more demand on the already-
strained F-35 sustainment enterprise and puts the services at risk of 
purchasing aircraft that they are not ready to sustain.
                               __________
               Questions Submitted by Senator Thom Tillis
                           dopma and fleet up
    2. Senator Tillis. Admiral Richardson, in 2008, the Navy instituted 
a program called ``Fleet Up,'' which means that officers serve as the 
XO and CO on the same ship in sequential assignments. The Center for 
Naval Analyses assessed the Fleet Up program and said the need for such 
a program ``began with a substantial gap between control-grade 
inventory and control-grade manning requirements.'' Does this mean the 
Navy wasn't creating enough XO and CO opportunities to promote enough 
Commanders and Captains? If yes, why not?
    Admiral Richardson. No, it does not mean that we weren't creating 
enough executive officer and commanding officer opportunities to 
promote enough officers to the ranks of commander and captain. At the 
time of Fleet Up implementation, there was a concern within the Surface 
Warfare Community regarding future promotion opportunity to captain. 
There was, and continues to be, a delta between authorized billets and 
available inventory of those promoted to captain, but, as a whole, Navy 
promotes the best and fully qualified officers to each pay grade within 
control grade limits imposed by the Defense Officer Personnel 
Management Act (DOPMA). While promotion to captain was an initial 
driver for the Fleet Up study, it quickly became apparent to the 
Surface Force leadership that a readiness benefit might also be derived 
from Fleet Up. Under the legacy model, there was a commanding officer 
or executive officer relief every calendar year due to completion of 
prescribed tour lengths, typically 19-22 months for commanding officer 
and 12-14 months for executive officer. Fleet Up reduced that turnover 
rate, thereby increasing command stability for a longer period of time. 
The increase in command leadership stability and the perceived 
readiness benefits became the principal driver in the decision to 
continue Fleet Up. The Comprehensive Review (CR) of recent surface 
force incidents looked holistically at the surface warfare officer 
career path. The CR has made several recommendations that we will use 
to evaluate possible career path modifications.

    3. Senator Tillis. Admiral Richardson, in its report, CNA stated 
that the gaps were the result of general shortage of officers in 
control grades, but also due to ``shortages in career-enhancing 
positions associated with high-probabilities of promotion selection.'' 
Is the proliferation of career broadening and staff assignments 
contributing to the growth of requirements for control-grade officers, 
particularly in post-command commanders?
    Admiral Richardson. In reviewing the data over the last fifteen 
years, there was no substantial increase in the number of career 
broadening and staff assignments for Unrestricted Line control grade 
officers. That said, changes in force structure and requirements 
continue to challenge Navy's ability to meet its goal of one-hundred 
percent of inventory in the control grades. Specifically, as fiscal 
constraints limit Navy's ability to build new platforms as well as 
maintain the current number of operational units thereby increasing the 
number of post-command commanders (PCCs), the ability to produce PCCs 
is limited. Because PCCs typically gain a wealth of expertise and 
experience having served in billets inside and outside of their 
community, they are highly desired for service in the most challenging 
assignments that require a wide range of capabilities. The ability to 
produce PCCs is constrained by a finite number of billets with command 
opportunity, therefore PCCs are detailed to the most critical billets 
where their expertise and experience is used for the greatest benefit 
to the Navy.

    4. Senator Tillis. Admiral Richardson, Fleet Up is essentially the 
same model used in Navy flying units. Did the Navy adequately consider 
the cultural differences between flying units and the surface warfare 
community prior to implementing Fleet Up?
    Admiral Richardson. Yes, we did consider cultural differences 
between aviation and surface warfare communities prior to implementing 
Fleet Up. We assessed the equities, as well as the pros and cons of the 
Fleet Up model, in the context of how it would impact the surface Navy. 
Specifically, we analyzed the effects of longevity during a given tour 
for both officer and ship. A 2014 Center for Naval Analyses study 
maintains that `` . . . ships with longer-serving commanding officers 
had better material readiness,'' and that tenure as executive officer 
would encourage the officer to take a longer view of policies put in 
place. While developing and implementing the Fleet Up model in the 
surface force, we made adjustments to the program informed by lessons 
learned provided through fleet feedback. The Comprehensive Review (CR) 
of recent surface force incidents looked holistically at the surface 
warfare officer career path. The CR has made several recommendations 
that we will use to evaluate possible career path modifications.

    5. Senator Tillis. Secretary Spencer and Admiral Richardson, 
according to the report, the due-course career path for a surface 
warfare officer is ``a series of sea and shore assignments designed to 
provide the experiences needed to progress from Ensign to Captain in 
the Navy's closed, up-or-out personnel system.'' Does the ``up-or-out'' 
system force the Navy to rush the development of officers in certain 
technical specialties?
    Secretary Spencer and Admiral Richardson. The up-or-out system does 
not force us to rush development of officers in certain technical 
specialties. Surface Warfare Officers are afforded two division officer 
tours to permit them to hone their skills, while preparing them to 
screen for their next career milestone--department head afloat. 
Officers also complete two department head afloat tours--and 
potentially post-department head at-sea tours--before screening for 
executive officer/commanding officer. Over the past decade, average sea 
time has increased by approximately five months for all officers who 
command ships, primarily due to the executive officer tour-length 
increasing from 13 months, prior to implementation of Fleet Up, to 18 
months currently. The career path is designed to develop professional 
mariners and warfighters at sea. Performance in at-sea milestone tours 
is the most important factor in whether or not an officer screens for 
the next milestone. In between milestone tours, officers develop 
specialties vital to the programmatic and business side of the Navy, 
including financial management, operations analysis, manpower and 
education, strategy and planning, etc. The Comprehensive Review (CR) of 
recent surface force incidents looked holistically at the surface 
warfare officer career path. The CR has made several recommendations 
that we will use to evaluate possible career path modifications.

    6. Senator Tillis. Admiral Richardson, the Center for Naval 
Analyses stated that one possible negative result of the Fleet Up 
program is ``tour start dates shifting to the right and command-
screened officers are waiting to start their command assignments.'' 
This has in fact occurred and we're now seeing large sea gaps of 5 
years or more in Fleet Up Destroyer captains. Do you believe the Fleet 
Up program has created a situation where surface warfare officers are 
spending too much time away from the waterfront?
    Admiral Richardson. In 2005, the surface community designed and 
approved the executive officer/commanding officer Fleet Up program, 
cognizant of the time officers would spend between their department 
head and executive officer assignments. When Fleet Up was implemented, 
by design, the notional time between department head tours and the 
start of the executive officer tour was 5.5 years. Since that time, the 
community has tracked and managed the average time between the end of 
second department head tour and the start of the executive officer tour 
to ensure the program has been maintained as designed and also to not 
disadvantage officers by having them away from the waterfront longer. 
The surface community constantly manages and adjusts officers' career-
timing to meet their career needs, and the needs of the community based 
on the billets available on ships at sea. On the most recently approved 
Fleet Up slate, the average time between department head and executive 
officer tours was 5.38 years, while the average time throughout the 
tenure of the Fleet Up program has been 5.6 years. The Comprehensive 
Review (CR) of recent surface force incidents looked holistically at 
the surface warfare officer career path. The CR has made several 
recommendations that we will use to evaluate possible career path 
modifications.

    7. Senator Tillis. Admiral Richardson, could this lead to a loss of 
proficiency among the surface warfare community in the XO/CO ranks?
    Admiral Richardson. Unnecessary risk is unacceptable. For each 
expired certification, risk was managed through development of a Risk 
Assessment and Mitigation Plan (RAMP) that was approved by either the 
ship's Immediate Superior in Command (ISIC) or Commander, Naval Surface 
Forces Pacific (CNSP). The existing RAMP process, however, was biased 
towards operations and did not appropriately mitigate and balance the 
risk created by the high pace of operations (force employment) with 
force generation periodic training and certification requirements in 
the case of the Forward Deployed Naval Forces in Japan (FDNF-J). To 
correct this imbalance, Commander U.S. Pacific Fleet cancelled all 
RAMPS, elevated RAMP approval from the ISIC/CNSP to his level, and 
directed the conduct of comprehensive readiness-for-sea assessments for 
every FDNF-J ship. ADM Swift has taken immediate corrective action 
which informed both the follow-on comprehensive and strategic reviews.

    8. Senator Tillis. Secretary Spencer and Admiral Richardson, do 
some of the requirements of DOPMA and other laws reduce your ability to 
flexibly manage your surface warfare officer population, especially 
when it comes to building sufficient levels of technical expertise?
    Secretary Spencer. Yes. Some statutes, including a number of those 
included in DOPMA, limit our ability to efficiently and effectively 
manage the officer corps. Notwithstanding such constraints, we have 
promulgated policies and manpower management strategies that provide 
surface warfare officers, and the entire officer corps, with sufficient 
levels of technical expertise and experience throughout their careers. 
While DOPMA provides a frame work to create a preeminent fighting 
force, it is over 35 years old. Our future success in competing for the 
best and brightest talent in America led us to embark on an effort to 
transform our human resources system to offer increased choice, 
flexibility, opportunity, and transparency. Congress has helped this 
effort by enacting a number of amendments to DOPMA and other personnel 
authorities, which has begun to move us in the right direction. We 
continue to evaluate the statutes under which we operate. We look 
forward to continuing the dialogue across DOD, and with the Congress, 
in a review of DOPMA/ROPMA and the pursuit of new or enhanced 
authorities that will meet the unique needs of each branch and 
component of the Armed Forces, while helping to sustain our position as 
the preeminent and most lethal fighting force in history.
    Admiral Richardson. Yes. Congress has already been, and continues 
to be, of great help in our efforts to thoroughly reevaluate DOPMA, and 
other personnel laws, in order to ensure we have the tools to 
effectively and efficiently manage the officer corps in a manner that 
enhances warfighting readiness. The Comprehensive Review of Recent 
Surface Forces Incidents specifically recommended an evaluation of the 
Surface Warfare Career Path, with particular emphasis on length of 
tours and currency of time at sea, which could identify a need for 
additional changes to DOPMA. As the need for additional changes are 
identified, we look forward to continuing the dialogue across DoD, and 
with the Congress, in pursuit of new or enhanced authorities that will 
meet the unique needs of each branch and component of the Armed Forces, 
while helping to sustain our position as the preeminent and most lethal 
fighting force in history.

    9. Senator Tillis. Secretary Spencer, does Congress need to help 
you and the other military services by reevaluating DOPMA and other 
related personnel laws in order to ensure our officers are managed in a 
way that allows them to focus on warfighting and gain sufficient levels 
of skill and experience?
    Secretary Spencer. Yes. Congress has already been, and continues to 
be, of great help in our efforts to thoroughly reevaluate DOPMA, and 
other personnel laws, in order to ensure we have the tools to 
effectively and efficiently manage the officer corps in a manner that 
enhances warfighting readiness. The Comprehensive Review of Recent 
Surface Forces Incidents specifically recommended an evaluation of the 
Surface Warfare Career Path, with particular emphasis on length of 
tours and currency of time at sea, which could identify a need for 
additional changes to DOPMA. As the need for additional changes are 
identified, we look forward to continuing the dialogue across DOD, and 
with the Congress, in pursuit of new or enhanced authorities that will 
meet the unique needs of each branch and component of the Armed Forces, 
while helping to sustain our position as the preeminent and most lethal 
fighting force in history.
                               __________
              Questions Submitted by Senator David Perdue
 impact of budget uncertainty, budget control act caps, and continuing 
                              resolutions
    10. Senator Perdue. Secretary Spencer and Admiral Richardson, can 
we meet our national security commitments if we do not address these 
serious issues of fixing the financial situation and improving 
budgetary certainty for the Navy?
    Secretary Spencer and Admiral Richardson. No. There is a mismatch 
between the growing mission set that is emerging from the security 
environment and the sustainable level of naval power that we can 
generate with the funding available. This risk manifests in readiness 
and global force management. In recent years, the Navy has only been 
able to meet 40-45 percent of COCOM demand for naval forces. The 
Comprehensive Review underscores the imbalance between the number of 
ships in the Navy today and the increasing number of operational 
missions assigned to them. The Navy can supply a finite amount of 
forces for operations from the combined force of ships operating from 
CONUS and based abroad; this finite supply is based both on the size of 
the force as well as the readiness funding available to man, train, 
equip and sustain that force. Headquarters are working to manage the 
imbalance. U.S. Navy ships homeported in the continental United States 
balance maintenance, training and availability for operations 
(deployments and/or surge); the Pacific Fleet is re-examining its 
ability to maintain this balance for ships based in Japan as well. 
Under the Budget Control Act of 2011 and extended Continuing 
Resolutions, the ability to supply forces to the full demand is--and 
will remain--limited.

    11. Senator Perdue. Secretary Spencer and Admiral Richardson, how 
does budget uncertainty, CRs and caps impact your ability to plan and 
spend wisely?
    Secretary Spencer and Admiral Richardson. Budget uncertainty, 
continuing resolutions (CR), and sequestration-level funding caps add 
disruption, inefficiency and delays to our planning and execution of 
funding--delays that are becoming increasingly costly as we fall 
further and further behind the pace of available technology. We believe 
the past nine CR's have cost the Navy about $4 billion, not including 
opportunity cost or lesser imposed upon the industrial base. CR's limit 
our ability to supply forces to meet the growing demand of national 
security missions and impact the readiness of our forces and their 
equipment at a time when security threats are extraordinarily high. The 
longer the CR, the greater the consequences for our force. Budget 
uncertainty, CRs, and sequestration caps lead to deferred ship 
availabilities that disrupt maintenance and training schedules, and 
result in growth and new work in subsequent availabilities, increased 
costs, and inefficiency from sub-optimized work schedules--we cannot 
buy back lost time. They also can cause shipyards to lay-off employees 
and create future bills to the Navy due to unnecessary churn in the 
port-loading of our shipyards. Within our shipbuilding accounts, the 
impacts cause delays and churn for our already-besieged shipyards, 
requiring wasted time and effort to make adjustments and can result in 
new ships delivering late, and in turn current ships needing to operate 
longer, at great effort and expense. CRs also result in getting less 
for our dollar. We do not have authority to enter into new multi-year 
procurement contracts that allow us to negotiate lower unit costs. We 
pay higher prices for short-length services contracts. And we will have 
to spend more on overhead to write and review those agreements.
                             accepting risk
    12. Senator Perdue. Secretary Spencer and Admiral Richardson, the 
GAO found that 37 percent of certifications for cruiser and destroyer 
crews based in Japan had expired--a fivefold increase since the GAO's 
May 2015 report. That's a fivefold increase on a previously identified 
problem in only two years. How much risk does the Navy believe is 
acceptable with regard to these outstanding GAO recommendations?
    Secretary Spencer and Admiral Richardson. Unnecessary risk is 
unacceptable. For each expired certification, risk was managed through 
development of a Risk Assessment and Mitigation Plan (RAMP) that was 
approved by either the ship's Immediate Superior in Command (ISIC) or 
Commander, Naval Surface Forces Pacific (CNSP). The existing RAMP 
process, however, was biased towards operations and did not 
appropriately mitigate and balance the risk created by the high pace of 
operations (force employment) with force generation periodic training 
and certification requirements in the case of the Forward Deployed 
Naval Forces in Japan (FDNF-J). To correct this imbalance, Commander 
U.S. Pacific Fleet cancelled all RAMPS, elevated RAMP approval from the 
ISIC/CNSP to his level, and directed the conduct of comprehensive 
readiness-for-sea assessments for every FDNF-J ship. ADM Swift has 
taken immediate corrective action which informed both the follow-on 
comprehensive and strategic reviews.
                navy--example of broader defense problem
    13. Senator Perdue. Mr. Pendleton, throughout your work over the 
past 6 years, are you seeing any trends of systemic issues across 
services?
    Mr. Pendleton. Our work has shown that readiness challenges persist 
across a number of areas including, but not limited to, the Navy. In 
June 2017, we issued a report highlighting five key mission challenges 
facing the Department of Defense (DOD). \5\ In that report, we noted 
that the United States faces an extremely challenging national security 
environment at the same time that it is grappling with addressing an 
unsustainable long-term fiscal path caused by a structural imbalance 
between revenue and spending, with DOD accounting for approximately 
half of the federal government's discretionary spending. Within this 
environment, DOD is working to both rebuild the readiness of its forces 
and modernize to meet future threats while facing constrained budgets. 
Each of the military services today are generally smaller and less 
combat ready than they have been in many years, and, according to DOD, 
each military service has been forced to cut critical needs in areas 
such as training, maintenance, and modernization due to budgetary 
constraints.
---------------------------------------------------------------------------
    \5\ This included a detailed discussion of our priority 
recommendations to DOD. Since August 2015, we have identified priority 
recommendations in letters to the Secretary of Defense--recommendations 
that we have made to DOD that we believe the department should give a 
high priority to addressing. See GAO, Department of Defense: Actions 
Needed to Address Five Key Mission Challenges, GAO-17-369 (Washington, 
DC: June 13, 2017). As of June 2017, 78 priority recommendations 
remained open.
---------------------------------------------------------------------------
    In September 2016, we reported specifically on factors that affect 
reported readiness levels, DOD's efforts to manage the impact of 
deployments on readiness, and DOD's implementation and oversight of 
department-wide readiness rebuilding efforts. \6\ We found that:
---------------------------------------------------------------------------
    \6\ GAO, Military Readiness: DOD's Readiness Rebuilding Efforts May 
Be at Risk without a Comprehensive Plan, GAO-16-841 (Washington, DC: 
Sept. 7, 2016).

    <bullet>  The military services have reported persistently low 
readiness levels, which they have attributed to emerging and continued 
demands on their forces, reduced force structure, and increased 
frequency and length of deployments. For example, the Air Force 
experienced a 58 percent decrease in the number of fighter and bomber 
squadrons from 1991 to 2015 while maintaining a persistent level of 
demand from the combatant commands for the use of its forces. In 
addition, the Navy has experienced an 18 percent decrease in its fleet 
of ships since 1998 and an increase in demand, resulting in the 
deployment lengths for many ships increasing from 7 months to a less 
sustainable 9 months.
    <bullet>  DOD officials have indicated that overall demand has been 
decreasing since 2013, but the department has reported that the ability 
to rebuild capability and capacity is hindered by continued demand for 
some forces. To mitigate the impact of continued deployments on 
readiness, the Joint Staff has focused on balancing the distribution of 
forces for high-priority missions with the need to rebuild the 
readiness of the force. Efforts include revising major plans to better 
reflect what the current and planned force is expected to achieve and 
improving the management of DOD's process for sourcing global demands 
by, among other things, balancing the supply of forces with the minimum 
required to meet global demands. However, it is too soon to tell what 
impact implementation of these initiatives will have on DOD's readiness 
recovery efforts because the department is still working to complete 
implementation.
    <bullet>  DOD has stated that readiness rebuilding is a priority, 
but implementation and oversight of department-wide readiness 
rebuilding efforts have not fully included key elements of sound 
planning, putting the rebuilding efforts at risk. Key elements of sound 
planning for results-oriented outcomes include a mission statement 
supported by long-term goals, strategies for achieving the goals, 
metrics, and an evaluation plan to determine the appropriateness of the 
goals and effectiveness of implemented strategies. In 2014, DOD tasked 
the military services to develop plans for rebuilding readiness. Each 
service developed a plan based on the force elements that were 
experiencing a high pace of deployments or facing challenges in 
achieving readiness recovery. In 2015, the services reported their 
readiness rebuilding plans to DOD, which identified readiness goals and 
timeframes for achieving them, but these goals were incomplete and some 
of the timeframes have been extended. We found that the services have 
also not defined comprehensive strategies, with the resources required 
for achieving the identified goals, nor have they fully assessed the 
effect of external factors such as maintenance and training on 
readiness rebuilding goals. Moreover, the services have not fully 
established metrics that the department can use to oversee readiness 
rebuilding efforts and evaluate progress towards achieving the 
identified goals. Without DOD incorporating key elements of sound 
planning into recovery efforts, and amid competing priorities that the 
department must balance, successful implementation of readiness 
recovery plans may be at risk.

    14. Senator Perdue. Mr. Pendleton, in your view, do the problems 
you found in your recent reviews of the Navy incidents and the state of 
its shipyards, speak to a broader issue or problem within the 
Department of Defense?
    Mr. Pendleton. As we noted in our written statements, the Navy 
continues to face challenges with manning, training, and maintaining 
its existing fleet. In order to address these readiness problems, the 
Navy will need to implement GAO's recommendations--particularly in the 
areas of assessing the risks associated with overseas basing, 
reassessing sailor workload and the factors used to size ship crews, 
managing investments to modernize and improve the efficiency of the 
naval shipyards, and applying sound planning and sustained management 
attention to its readiness rebuilding efforts.
    With respect to rebuilding readiness efforts, each of the military 
services and the Department has more work to do. We recommended in 2016 
that DOD and the services establish comprehensive readiness goals, 
strategies for implementing them, and associated metrics that can be 
used to evaluate whether readiness recovery efforts are achieving 
intended outcomes. \7\ DOD generally concurred with our recommendations 
and, in November 2016, issued limited guidance to the military services 
on rebuilding readiness; it has also started to design a framework to 
guide the military services in achieving readiness recovery but has not 
yet implemented our recommendations. For example, the Navy has since 
extended its time frame for readiness recovery to at least 2021, but it 
still has not developed specific benchmarks or interim goals for 
tracking and reporting on readiness recovery. Navy officials cited 
several challenges to rebuilding readiness, chief among them the 
continued high demand for its forces, the unpredictability of funding, 
and the current difficulty with beginning and completing ship 
maintenance on time.
---------------------------------------------------------------------------
    \7\ GAO, Military Readiness: DOD's Readiness Rebuilding Efforts May 
Be at Risk without a Comprehensive Plan, GAO-16-841 (Washington, DC: 
Sept. 7, 2016).
---------------------------------------------------------------------------
    Continued congressional oversight will be needed to ensure that the 
Navy demonstrates progress in addressing its maintenance, training, and 
other challenges and that DOD and the other military services address 
our recommendations.
                      readiness--time constraints
    15. Senator Perdue. Admiral Richardson, these four incidents that 
occurred over the past 8 months led to unscheduled repairs and salvage 
times that took or will take these ships offline for a total of up to 3 
years, and will cost more than half a billion dollars. What's the 
impact of unscheduled and lengthy repairs having on our ops tempo of 
the rest of the Navy fleet?
    Admiral Richardson. The loss of capacity due to these incidents 
will have an impact on operational tempo (OPTEMPO) in the short term. 
The Navy intends to meet its fiscal year (FY) 2018 global presence 
commitments and is adjusting schedules to do so. This involves surging 
a ship to the U.S. Central Command area of responsibility for its 
second deployment within the 36 month Optimized Fleet Response Plan 
(OFRP) cycle. This additional deployment will exceed an OPTEMPO of our 
service deploy to dwell (D2D) goal of 2:1, but will not violate 
Secretary of Defense's 1:1 D2D limit. This deployment demonstrates the 
flexibility of the OFRP force generation model. Beyond fiscal year 
2018, the Navy will adjust its force offerings to reflect ship 
availability while the damaged ships are repaired.

    16. Senator Perdue. Admiral Richardson, will this have a domino 
effect on the rest of the fleet?
    Admiral Richardson. I would not characterize this as a domino 
effect. These incidents will not have an impact on the large majority 
of other warships. However, in a small number of cases, we will adjust 
deployment dates, locations, or both. This involves surging a ship to 
the U.S. Central Command area of responsibility for its second 
deployment within the 36 month Optimized Fleet Response Plan (OFRP) 
cycle. This additional deployment will exceed an OPTEMPO of our service 
deploy to dwell (D2D) goal of 2:1, but will not violate Secretary of 
Defense's 1:1 D2D limit. This deployment demonstrates the flexibility 
of the OFRP force generation model.
                     homeporting in u.s. v. abroad
    17. Senator Perdue. Secretary Spencer and Admiral Richardson--can 
you give us the benefit of homeporting overseas? Especially from a 
posture and alliance reassurance perspective?
    Secretary Spencer and Admiral Richardson. Credible combat power 
will remain postured in the Western Pacific and the Arabian Gulf/Indian 
Ocean to protect our vital interests, assure our allies and partners of 
our continuing commitment to regional security, and deter and dissuade 
potential adversaries and peer competitors. Homeporting ships overseas 
allows us to provide Geographic Combatant Commanders more presence with 
fewer ships, and this combat power can be selectively repositioned 
faster than forces homeported in the United States to meet 
contingencies that may arise elsewhere. Additionally, these forces are 
sized and postured to fulfill the following strategic imperatives: 
Limit regional conflict with forward deployed and decisive maritime 
power, deter a major power war, and win our Nation's wars. By being 
forward deployed and engaged in mutually beneficial relationships with 
regional and global partners, maritime forces are better equipped to 
promote frameworks that enhance security due to their ability to 
respond faster and remain on station longer. When natural or manmade 
disasters strike, our maritime forces provide humanitarian assistance 
and relief, joining with interagency and non-government partners. By 
participating routinely and predictably in cooperative activities, 
maritime forces are postured to support other joint or combined forces 
to mitigate and localize disruptions.
                               __________
            Questions Submitted by Senator Claire McCaskill
                        training certifications
    18. Senator McCaskill. Secretary Spencer and Admiral Richardson, 
prior to the Fitzgerald and McCain incidents:

    A. What was the waiver process for expired training certifications 
for the 7th Fleet? What was the minimum level a waiver could be 
approved? For the rest of the Navy?
    Secretary Spencer and Admiral Richardson. There is no certification 
waiver process for the Naval Surface Force, nor for ships in Seventh 
Fleet. Certifications are either current or expired. Unique to Forward 
Deployed Naval Forces (FDNF), expired certifications were managed 
through a Risk Assessment and Mitigation Plan (RAMP) process that was 
approved by either the ship's Immediate Superior in Command (ISIC) or 
Commander, Naval Surface Forces Pacific (CNSP). RAMPs did not grant 
certification waivers, but documented a timeline to achieve 
certification status at a later date. Following the collisions of 
Fitzgerald and McCain, all RAMPS were cancelled and RAMP approval was 
elevated to the level of Commander, U.S. Pacific Fleet. Additionally, 
ADM Swift directed the conduct of Readiness-for-Sea assessments to 
review the training and material status of each ship to conduct 
underway operations. It is important to note that in the OFRP force 
generation model every ship will have expired certifications that are 
in the process of being reset as they progress from the Maintenance 
Phase through the Advanced Phase. Certifications are completed before 
deployment. As a hard and fast policy, Operational Commanders do not 
deploy ships with expired Certifications.

    B. At what level were ship training certification statuses reported 
to?
    Secretary Spencer and Admiral Richardson. Warfare Certifications 
are reported to both the numbered fleet commanders (either Commander, 
Seventh Fleet or Commander, Third Fleet) and to Type Commanders.

    C. Were ship training certification statuses regularly reported to 
and known by senior Navy leadership at the Secretarial and CNO level? 
If not, why not?
    Secretary Spencer and Admiral Richardson. Following the Fitzgerald 
and McCain incidents, COMPACFLT raised Risk Assessment and Mitigation 
Plan (RAMP) approval authority for a 7th Fleet ship with expired 
certifications to his level. This RAMP process is unique to 7th Fleet. 
There is no corresponding process for the rest of the Navy.

    19. Senator McCaskill. Secretary Spencer and Admiral Richardson, 
following the Fitzgerald and McCain incidents:

    A. Who is the waiver approval authority for a ship that has expired 
training certifications for 7th Fleet? Who is the waiver approval 
authority for the rest of the Navy? If it is not the Secretarial or CNO 
level, why not?
    Secretary Spencer and Admiral Richardson. Following the Fitzgerald 
and McCain incidents, COMPACFLT raised Risk Assessment and Mitigation 
Plan (RAMP) approval authority for a 7th Fleet ship with expired 
certifications to his level. This RAMP process is unique to 7th Fleet. 
There is no corresponding process for the rest of the Navy.

    B. What is the current status of training certifications for the 
7th Fleet? What is the current status of training certifications for 
our other forward deployed fleets and ships?
    Secretary Spencer and Admiral Richardson. Currently, 7th Fleet has 
four ships not undergoing maintenance availabilities and operational. 
One ship is executing a focused training and certification schedule and 
not available for operational tasking until she completes the required 
certifications. The other three ships are in various stages of 
completing their warfare certifications. One ship has been cleared and 
certified for limited, single mission tasking while the others have 
completed a majority of their certifications and are in the final 
stages of completing the remainder. COMPACFLT has not approved any 
certification waivers under the new readiness generation model, and 
ships will only be assigned missions in areas in which they are 
certified to operate.

    C. What is the current status of training certifications for CONUS 
based ships?
    Secretary Spencer and Admiral Richardson. Ships from CONUS are 
certified in all warfare areas prior to deployment to the standards 
delineated in COMNAVSURFPAC/COMNAVSURFLANT readiness policy (e.g., 
Surface Force Readiness Manual (SFRM) and Surface Force Exercise Manual 
(SFEM)). Certifications do not expire during deployment for operations 
and remain valid until the next maintenance period.
                               __________
              Questions Submitted by Senator Mazie Hirono
                    assessment of current readiness
    20. Senator Hirono. Secretary Spencer and Admiral Richardson. 
Increases in operational tempo coupled with the limited number of ships 
and sailors likely lead to more deployments of longer duration which 
can result in decreased maintenance periods and reduced training time 
available for crews. Although the investigations have not been 
completed, it seems clear that these could be contributing factors for 
the various incidents. What is your assessment of readiness for our 
deployed naval forces? What are the trends in readiness since 
sequestration with the additional impacts of CR's and what is needed to 
remedy the situation?
    Secretary Spencer. What is your assessment of readiness for our 
deployed naval forces? All rotational naval forces deploy manned, 
trained, and equipped to effectively execute assigned tasking within 
required mission areas. Over the course of a deployment, assigned 
tasking specific to an area of responsibility (AOR) may be limited to a 
few mission areas, resulting in reduced opportunities to train and 
maintain proficiency within all other mission areas. Forward deployed 
naval forces (FDNF) may execute multiple deployments that focus on 
tasking within specific mission areas at the expense of extensive 
training in all mission areas. What are the trends in readiness since 
sequestration with the additional impacts of CR's and what is needed to 
remedy the situation? The impact of successive CRs on Navy readiness 
has been evident since 2009 in the form of degraded performance in our 
ship and aircraft depot maintenance facilities, deferred or truncated 
ship maintenance and modernization, underinvestment in both ship and 
aviation spare parts, underinvestment in training ranges as well as 
ordnance and manning shortfalls. Sequestration in 2013 exacerbated 
these readiness trends. While, in most years the Navy has received end 
of year funding to close urgent gaps created by the annual CRs, the 
unstable and unpredictable nature of this funding had a negative effect 
on numerous readiness enablers, directly resulting in truncated 
training periods to accommodate maintenance delays. These truncated 
training periods disrupted the professional development and quality of 
life of our sailors. Additionally, reduced training time and the 
absence of sufficient training ordnance significantly reduced 
opportunities for additional warfighting proficiency in training to the 
high end fight. What is needed to remedy the situation? Stable, 
predictable funding of the Navy readiness requirements as identified in 
the Navy's annual budget request.
    Admiral Richardson. There is no certification waiver process for 
the Naval Surface Force, nor for ships in Seventh Fleet. Certifications 
are either current or expired. Unique to Forward Deployed Naval Forces 
(FDNF), expired certifications were managed through a Risk Assessment 
and Mitigation Plan (RAMP) process that was approved by either the 
ship's Immediate Superior in Command (ISIC) or Commander, Naval Surface 
Forces Pacific (CNSP). RAMPs did not grant certification waivers, but 
documented a timeline to achieve certification status at a later date. 
Following the collisions of Fitzgerald and McCain, all RAMPS were 
cancelled and RAMP approval was elevated to the level of Commander, 
U.S. Pacific Fleet. Additionally, ADM Swift directed the conduct of 
Readiness-for-Sea assessments to review the training and material 
status of each ship to conduct underway operations. It is important to 
note that in the OFRP force generation model every ship will have 
expired certifications that are in the process of being reset as they 
progress from the Maintenance Phase through the Advanced Phase. 
Certifications are completed before deployment. As a hard and fast 
policy, Operational Commanders do not deploy ships with expired 
Certifications.
    Warfare Certifications are reported to both the numbered fleet 
commanders (either Commander, Seventh Fleet or Commander, Third Fleet) 
and to Type Commanders.
                              swo training
    21. Senator Hirono. Secretary Spencer and Admiral Richardson. How 
has the training provided to Surface Warfare Officers (SWO's been 
modified over the past couple of decades? Do they have more time 
learning the basics, less? How has the amount of actual ship driving 
training time changed over the years? Are there changes to this type of 
training for SWO's in process or planned for the future independent of 
the recently started reviews?
    Secretary Spencer and Admiral Richardson. How has the training 
provided to Surface Warfare Officers (SWOs) been modified over the past 
couple of decades? Before 2003, Division Officers received 16 weeks of 
instructor-led classroom instruction before reporting to their assigned 
ship. From 2003 to 2008, classroom instruction ceased with Division 
Officers completing Computer Based Training (CBT) modules after 
reporting to their ship. Both training models leveraged ship Personnel 
Qualification Standards (PQS) and on-the-job (OJT) training to qualify 
underway Junior Officers of the Deck (JOOD) and Officers of the Deck 
(OOD) as well as learn Division Officer duties. In 2008, Navy restored 
3 weeks of classroom instruction for officers prior to reporting to 
their first ship. Training was increased again in 2012 and 2014 to what 
is now a 9-week Basic Division Officer Course (BDOC) for all 
prospective Division Officers. In 2014 an Advanced Division Officer 
Course (ADOC) (now 5 weeks) was established. Combined, this BDOC and 
ADOC 14-week training track makes substantial use of high-fidelity 
simulators, hands-on navigation labs, and instructor-led learning that 
exceeds training provided to past officers but still relies on ship PQS 
and OJT to train and qualify officers to stand underway JOOD and OOD 
watches and learn Division Officer duties. The results of Comprehensive 
Review (CR) will change SWO training. In addition to the above 
training, Navy is working to implement CR recommendations. 
Recommendations that affect SWO training include: evaluating the SWO 
career path from accession to major command including the scope and 
timing of formal training; improving seamanship, navigation and 
Operational Risk Management (ORM) individual skills training; upgrading 
current simulators to improve seamanship and navigation team training 
and certifications to include assessments in high shipping density, 
emergency and in extremis environments; providing additional 
fundamentals training for officers who qualified SWO without initial 
classroom training; and creating an objective, standardized assessment 
program to periodically assess individual seamanship and navigation 
skills over the course of a Surface Warfare Officer's career. Do they 
have more time learning the basics, less? Today, there is less time 
learning the basics (currently 14-weeks instead of 16-weeks prior to 
2003). However, prior investments in simulators and other technologies 
enable faster learning. Implementation of the the CR recommendations 
will increase the length of training and will include additional 
investments in simulators and underway assessments enabling officers to 
learn the basics, develop the requisite Mariner skills to safely and 
effectively handle their ships and demonstrate the ability to do so in 
challenging and emergent circumstances. How has the amount of actual 
ship driving training time changed over the years? Division Officer 
tour lengths were increased in 1995, affording those officers more ship 
driving opportunities. There is a general consensus, however, that ship 
driving opportunities have decreased due to a declining number of 
ships, less dedicated at-sea training time, and a larger pool of 
officers competing for time on the bridge. The CR made several 
recommendations associated with officer training, qualifications, tour 
lengths, the tracking of watch standing proficiency and the means of 
continually assessing that proficiency throughout an officer's career. 
Example recommendations related to more driving time include: 
establishing a single, longer division officer tour as the standard, 
with allowances for specific billet requirements and emphasis in the 
first division officer tour on building proficiency, especially in 
seamanship and navigation; establishing policy to define, maintain, and 
re-establish SWO JOOD and OOD currency; and evaluating the use of Yard 
Patrol craft in all officer accession programs. Implementation of the 
CR recommendations will result in a measurable improvement in the 
quality of ship driving time. When combined with training and 
documented and demonstrated proficiency at key milestones, these 
recommendations will improve the mariner skills of all SWOs. Are there 
changes to this type of training for SWOs in process or planned for the 
future independent of the recently started reviews? Yes, Navy was 
already planning for future training improvements independent of the 
Comprehensive Review (CR). Examples include: (1) providing Radar 
Navigation Team Training along with continued updates to shiphandling 
models and harbors, (2) expanding Voyage Management System training, 
(3) increasing celestial navigation and visual communications 
proficiency, and (4) providing additional heavy weather mooring and 
anchoring training. Now that the CR has been completed, all in-process 
training and future training revisions will be reassessed in accordance 
with its recommendations. While some of the CR recommendations can be 
made immediately, others will take time as they are dependent on 
significant simulator and facilities upgrades and additional 
instructors and assessors at the schoolhouse, waterfront and at-sea, 
all of which are being or will be implemented.
                     national defense in pacom aor
    22. Senator Hirono. Secretary Spencer and Admiral Richardson. The 
PACOM AOR has four of the five major threats to national security and 
North Korea continues to challenge international security through 
continued missile defense. With two Aegis ships involved in recent 
mishaps, is the Navy adequately postured to support the missile defense 
missions in the region? How will you fill the void especially with 
recent North Korean actions? What impact does this have on our 
relationship with allies in the region? Have you sensed concern on 
their part?
    Secretary Spencer and Admiral Richardson. The U.S. Navy is 
inherently flexible and has several options to cover missions after the 
temporary loss of an operational asset. Seventh Fleet continues to meet 
current mission tasking in the Indo-Asia Pacific area of operations. If 
the work load were to exceed 7th Fleet capacity alone, 3rd Fleet ships 
that transit through or deploy to the 7th Fleet Area of Operations can 
provide support. If necessary, the potential always exists that U.S. 
Navy assets could be redeployed to the region from other parts of the 
globe. As an example, this month, the guided-missile cruiser USS 
Monterey (CG 61), which was in a surge status, was tasked to deploy 
from Norfolk Naval Station to the U.S. 5th Fleet and U.S. 6th Fleet 
areas of operations. This will enable the USS O'Kane (DDG 77), 
previously scheduled for CENTCOM deployment, to serve in the U.S. 7th 
Fleet area of operation.
    Our routine presence reassures allies and enhances security and 
stability for all regional countries.
                         decisions on training
    23. Senator Hirono. Secretary Spencer and Admiral Richardson. GAO 
report (17-798T) revealed that there were no dedicated training periods 
built into the operational schedules of the cruisers and destroyers 
based in Japan and that the Navy used a ``train on the margins'' 
approach meaning crews trained while underway or in the limited time 
between underway periods; however, the Chairman of the Joint Chiefs of 
Staff testified before this committee that ``the United States military 
will not compromise training or equipping of any troops going into 
harm's way.'' Whose decision was it to not include training into 
operational schedules? Was there an operational risk management 
evaluation done on reducing and essentially eliminating training for 
core competencies? If so, how was it determined that the Navy should 
accept this level of risk or at least mitigate it?
    Secretary Spencer and Admiral Richardson. The previous Forward 
Deployed Naval Forces (FDNF) model was biased towards operations and, 
due to FDNF ships' operational tempo (OPTEMPO) and continuous tasking 
in support of national objectives, did not include periodic dedicated 
training windows. Training was accomplished in stride with operational 
tasking on a 24 month cycle. Following the McCain and Fitzgerald 
incidents, COMPACFLT established the Naval Surface Group Western 
Pacific (NSGWP) who will report directly to him in the near term, 
responsible for overseeing the training and certification of FDNF-J 
ships. This new organization is implementing a new FDNF force 
generation model with a dedicated training and certification period 
following maintenance availabilities, and will certify ships ``ready 
for tasking'' before they are deployed by operational commanders. NSGWP 
will provide a clear separation between force generation (training and 
maintenance) and force employment (operations). Although there may be 
three different periodicities / cycle length (e.g., CONUS 36 month, 
Japan 24 months, and Rota 32 months,) for training, every unit adheres 
to the same training and certification standards that are delineated in 
COMNAVSURFPAC/ COMNAVSURFLANT readiness policy (e.g., Surface Force 
Readiness Manual (SFRM) and Surface Force Exercise Manual (SFEM)). FDNF 
ships not certified in specific mission areas are not tasked in that 
area. PACFLT has not approved any waivers under the new readiness 
generation model. Ships will only be assigned missions in areas in 
which they are certified to operate.
                           108 hour work week
    24. Senator Hirono. Secretary Spencer and Admiral Richardson. GAO 
report (17-798T) states that sailors were sometimes on duty for 108 
hours during a one week period, exceeding their weekly on-duty 
allocation of 81 hours. This on-duty time included 90 hours of 
productive work. If the sailors worked for 7 days a week this would 
mean that each sailor was working over 15 hours a day every day of the 
week. How does something like this occur over an extended period of 
time? Before any study is complete, what is the Navy doing to ensure 
that this does not occur on a regular basis?
    Secretary Spencer and Admiral Richardson. We are taking a hard look 
as to how to empower our Commanding Officers to better-manage the 
workday of the crew within a repeatable, sustainable, and predictable 
framework. The Naval Surface Forces staff has already reviewed 
instructions to determine what can be removed or minimized to reduce 
administrative burdens on the fleet. Additionally, Commander, Naval 
Surface Forces, Vice Adm. Rowden, has mandated the implementation of 
circadian rhythm shipboard watch rotations and daily routines by 
December 20, 2017. Circadian rhythm cycles provide our sailors with a 
predictable watch rotation and protected sleep periods that recognize 
the human circadian rhythm. It should be emphasized that the 
utilization of both circadian rhythm watch bills and complimentary 
shipboard routines are required to successfully manage fatigue. Many 
ships in the Fleet are already on a circadian rhythm cycle that allows 
for more rest between watches and enables a predictable and repeatable 
work/watch cycle.
                        pressures on the service
    25. Senator Hirono. Admiral Richardson, in your testimony you 
identified that three pressures impact the Navy's readiness; those 
include: budget pressures, operational pressures, and schedule 
pressures. You additionally testified that the Navy has control over 
operational pressures and schedule pressures. How can you use the 
control that you have over operational pressures and schedule pressures 
to make improvements to readiness?
    Admiral Richardson. The Optimized Fleet Response Plan (OFRP) is the 
Navy's primary tool to manage operational and schedule pressures for 
Continental United States (CONUS) and Hawaii-based ships. OFRP provides 
certain entitlements for depot maintenance, training, and certification 
in every cycle. To reassess these entitlements and identify areas for 
improvement, we are conducting comprehensive ``Ready for Sea'' 
assessments to determine the material and operational readiness for all 
Japan-based ships. We are developing a force generation model for ships 
based in Japan that addresses the increasing operational requirements, 
preserves sufficient maintenance and training time, and improves 
certification accomplishment. We have permanently established Naval 
Surface Group Western Pacific as an administrative headquarters 
responsible for maintaining, training, and certifying Japan-based 
ships, focusing on these responsibilities for operational commanders.
                               __________
             Questions Submitted by Senator Martin Heinrich
                     inspections and certification
    26. Senator Heinrich. Admiral Richardson, in January 2015, the GAO 
found that 7 percent of the warfare readiness certifications for 
cruiser and destroyer crews homeported in Japan had expired. Fast-
forward to today, that number has jumped to 37 percent. Is the reason 
for that spike in expired certifications a failure to pass actual 
inspections OR is it because the Navy is simply not conducting 
inspections as often as it should?
    Admiral Richardson. The previous Forward Deployed Naval Forces 
(FDNF) model was biased towards operations and, due to FDNF ships' 
operational tempo (OPTEMPO) and continuous tasking in support of 
national objectives, did not include periodic dedicated training 
windows in which certifications could be completed. Training was 
accomplished in stride with operational tasking on a 24 month cycle. 
For each expired certification, risk was managed through development of 
a Risk Assessment and Mitigation Plan (RAMP) that was approved by 
either the ship's Immediate Superior in Command (ISIC) or Commander, 
Naval Surface Forces Pacific (CNSP). Because of OPTEMPO the process did 
not appropriately mitigate and balance the risk created by the high 
pace of operations (force employment) with force generation periodic 
training and certification requirements in the case of the Forward 
Deployed Naval Forces in Japan (FDNF-J). To correct this imbalance, 
Commander U.S. Pacific Fleet cancelled all RAMPS, elevated RAMP 
approval from the ISIC/CNSP to his level, and directed the conduct of 
comprehensive readiness-for-sea assessments for every FDNF-J ship. ADM 
Swift has taken immediate corrective action which informed both the 
follow-on comprehensive and strategic.

    27. Senator Heinrich. Admiral Richardson, if the answer is the 
latter, what specifically is preventing these inspections from 
occurring?
    Admiral Richardson. The previous Forward Deployed Naval Forces 
(FDNF) model was biased towards operations and, due to FDNF ships' 
operational tempo (OPTEMPO) and continuous tasking in support of 
national objectives, did not include periodic dedicated training 
windows. Training was accomplished in stride with operational tasking 
on a 24 month cycle. Following the McCain and Fitzgerald incidents, 
COMPACFLT established the Naval Surface Group Western Pacific (NSGWP) 
who will report directly to him in the near term, responsible for 
overseeing the training and certification of FDNF-J ships. This new 
organization is implementing a new FDNF force generation model with a 
dedicated training and certification period following maintenance 
availabilities, and will certify ships ``ready for tasking'' before 
they are deployed by operational commanders.

    28. Senator Heinrich. Admiral Richardson, since January 2015, how 
many certification waivers were issued for cruiser and destroyer crews 
homeported in Japan?
    Admiral Richardson. There is no certification waiver process for 
the Naval Surface Force, including for ships in Seventh Fleet. 
Certifications are either current or expired. Unique to Forward 
Deployed Naval Forces (FDNF), expired certifications were managed 
through a Risk Assessment and Mitigation Plan (RAMP) process that was 
approved by either the ship's Immediate Superior in Command (ISIC) or 
Commander, Naval Surface Forces Pacific (CNSP). RAMPs did not grant 
certification waivers, but documented a timeline to achieve 
certification status at a later date. Since January 2015, 45 RAMPs were 
approved for cruisers and destroyers homeported in Japan.

    29. Senator Heinrich. Admiral Richardson, has the Navy determined 
the certification and waiver percentages for ships operating in COCOMS 
outside of PACOM, and if so, what are those percentages?
    Admiral Richardson. Certifications are never waived. Rather, if a 
certification is anticipated to expire, the ship is required to submit 
a ``Risk Assessment and Mitigation Plan'' (RAMP) to document this 
expiration, propose mitigating actions, and submit a plan for future 
certification. RAMP plans are approved by the Operational Commander. 
Below is a summary of all non-Forward Deployed Naval Forces (FDNF) 
certifications as of October 2017:

    Atlantic:
    a.  Overall number of ships: 47 ships

    b.  Certificates expired: 199 mission areas expired
       101--Expired Due to Maintenance Phase
       88--Basic Phase
       10--Advanced/Integrated Phases
       0--Sustainment/Deployment Phases

    c.  Percent Expired: 21.5 percent expired

    Pacific:

    a.  Overall number of ships: 49 ships (excluding LCS)

    b.  Certificates expired: 330 mission areas expired
       258--Expired Due to Maintenance Phase
       47--Basic Phase
       24--Advanced/Integrated Phases
       1--Sustainment/Deployment Phases

    c.  Percent expired: 31.3 percent expired

    There is a critical point on this data that must be well understood 
before going forward. Without additional context, the percentage of 
expired certifications is misleading. All CONUS and Hawaii-based ships 
have their Certifications expire--by design--upon entering the 
Maintenance Phase. This deliberate reset of Certifications is to ensure 
a constant reevaluation of training per 36-month cycle--otherwise known 
as the Optimized Fleet Response Plan (OFRP). So while the numbers above 
are technically correct, the contextualized answer is stated below: 
Only one deployed ship from CONUS and Hawaii has an expired 
Certification; that is 1 Cert out of 2112 (96 ships times 22 Certs) As 
a hard and fast policy, Operational Commanders do not deploy ships with 
expired Certifications. All of the expired Certifications listed above 
on ships in the Advance/Integrated Phase still have time to complete 
this training, and we track each individual ship and their road to 
Certifications at the Flag Officer level. All of the Expired due to 
Maintenance Phase numbers listed above are a direct result of the 
resetting of Certifications when the ships are in the Maintenance 
Phase.
                           108 hour work week
    30. Senator Heinrich. Secretary Spencer and Admiral Richardson, the 
Navy's finding that some sailors are on-duty as many as 108 hours a 
week is deeply concerning. If you do the math, that amount of work 
leaves barely enough hours to rest and recover, let alone sleep. 
Without a reasonable amount of rest and recovery time, performance and 
concentration can suffer, thus increasing the chances for a mistake. In 
light of the recent mishaps, do you believe the Navy's manpower 
requirements are still current, analytically based, and are meeting the 
needs of the existing and future surface fleet?
    Secretary Spencer and Admiral Richardson. In 2014, Navy Personnel, 
Research, Science and Technology (NPRST), a former element of the 
Bureau of Naval Personnel, conducted an analysis of the Navy Standard 
Workweek, the planning factor used to convert work hours into manpower 
requirements during the Fleet Manpower Requirements Determination 
process. The preliminary data in the study was rejected due to lack of 
analytic rigor and small sample size. In May 2017, to ensure the 
analytical accuracy of Manpower Requirements Determination planning 
factors, my deputy for manpower, personnel, training and education, 
requested an independent analysis of the Navy Availability Factor to be 
conducted this fiscal year. The study will determine if the current 
components of the Navy Availability Factor remain appropriately defined 
to reflect the categories of time associated with the afloat-workweek. 
The Comprehensive Review of Recent Surface Force Incidents highlighted 
that a recent analysis of the Navy Standard Workweek identified the 
fact that typical on-duty hours exceeded the planning threshold factor. 
If the current components are not appropriately defined, the study will 
recommend revised time allowances to ensure our manpower model reflects 
the most current factors, and to improve the quality of manpower 
requirements for the current and future surface fleet. The 
Comprehensive Review also noted that we recently completed a related 
study on inport workload on DDG-51 class ships, which targeted 12 
guided missile destroyers (DDGs) across five stateside homeports. The 
study captured current inport work and revealed that, overall, inport 
workload is less than at-sea for most ratings, although 10 ratings do 
have more work inport than while at sea. We are working to incorporate 
these inport requirements into updated afloat Ship Manpower Documents. 
We are also expanding our analysis to evaluate our Forward Deployed 
Naval Forces ships, those homeported overseas, and refining the inport 
model for use in future studies. It is ultimately each commander's 
responsibility to ensure their crew is well-trained and rested. Many 
variables, including emergent schedule changes, equipment malfunctions, 
and real-world events, impact the number of hours sailors work and 
rest. We must, at every level of decision-making, be cognizant of the 
potential risks associated with executing a workweek that exceeds 
standard workweek parameters and reasonable expectations of what we 
should require of our sailors.

    31. Senator Heinrich. Secretary Spencer and Admiral Richardson, if 
not, what will you change from a manpower requirements standpoint in 
order to meet the needs of the existing and future surface fleet, and 
what resources and/or authorities do you need from congress?
    Secretary Spencer and Admiral Richardson. In 2014, Navy Personnel, 
Research, Science and Technology (NPRST), a former element of the 
Bureau of Naval Personnel, conducted an analysis of the Navy Standard 
Workweek, the planning factor used to convert work hours into manpower 
requirements during Fleet Manpower Requirements Determination. The 
preliminary data in the study was rejected due to lack of analytic 
rigor and small sample size. In May 2017, to ensure the analytical 
accuracy of Manpower Requirements Determination planning factors, my 
deputy for manpower, personnel, training and education, requested an 
independent analysis of the Navy Availability Factor to be conducted 
this fiscal year. The study will determine if the current components of 
the Navy Availability Factor remain appropriately defined to reflect 
the categories of time associated with the afloat-workweek. As 
reflected in the Comprehensive Review of Recent Surface Force Incidents 
a recent analysis of the Navy Standard Workweek identified the fact 
that typical on-duty hours exceeded the planning threshold factor. If 
the current components are not appropriately defined, the study will 
recommend revised time allowances to ensure our manpower model reflects 
the most current factors, and to improve the quality of manpower 
requirements for the current and future surface fleet. The 
Comprehensive Review also noted that we recently completed a related 
study on inport workload on DDG-51 class ships, which targeted 12 
guided missile destroyers (DDGs) across five stateside homeports. The 
study captured current inport work and revealed that, overall, inport 
workload is less than at-sea for most ratings, although 10 ratings do 
have more work inport than while at sea. We are working to incorporate 
these inport requirements into updated afloat Ship Manpower Documents. 
We are also expanding our analysis to evaluate our Forward Deployed 
Naval Forces ships, those homeported overseas, and refining the inport 
model for use in future studies. Based on the results of our reviews, 
we will assess the sufficiency of current resources, and will request 
assistance from Congress if additional resources or new authorities are 
needed.
                               __________
            Questions Submitted by Senator Elizabeth Warren
                           workweek standards
    32. Senator Warren. Admiral Richardson, GAO has reported that the 
Navy uses a workweek standard that ``does not reflect the actual time 
sailors spend working,'' including their responsibilities while in 
port. In fact, the Navy's own study in 2014 found that sailors were on 
duty 108 hours a week, reducing the time available for rest. The Navy 
study found that could encourage a ``poor safety culture.'' Do you 
agree with the conclusions of the Navy's study?
    Admiral Richardson. In 2014, Navy Personnel, Research, Science and 
Technology (NPRST) conducted an analysis of the Navy Standard Workweek 
that provided preliminary findings that some sailors reported they were 
working over 100 hours a week. Due to the lack of analytic rigor, small 
sample size, and incomplete nature of the study Navy deferred any 
policy decision. In May 2017, Navy initiated a request for a more 
rigorous and fully independent study of the Navy's workweek policy. The 
Comprehensive Review of Recent Surface Force Incidents highlighted that 
a recent analysis of the Navy Standard Workweek identified the fact 
that typical on-duty hours exceeded the planning threshold factor. If 
the current components are not appropriately defined, the study will 
recommend revised time allowances to ensure our manpower model reflects 
the most current factors, and to improve the quality of manpower 
requirements for the current and future surface fleet. The 
Comprehensive Review also noted that we recently completed a study of 
inport workload on DDG-51 class ships, which targeted 12 guided missile 
destroyers (DDGs) across five stateside homeports. We are working to 
incorporate these inport requirements into updated afloat Ship Manpower 
Documents. We are also expanding our analysis to evaluate our Forward 
Deployed Naval Forces ships, those homeported overseas, and refining 
the inport model for use in future studies. It is ultimately each 
commander's responsibility to ensure their crew is well trained and 
rested. Many variables including emergent schedule changes, equipment 
malfunctions, and real-world events impact the number of hours sailors 
work and rest. We must, at every level of decision making, be cognizant 
of the potential risks associated with executing a workweek that 
exceeds standard workweek parameters and reasonable expectations of 
what we should require of our sailors.

    33. Senator Warren. Admiral Richardson, what changes or process 
improvements has the Navy made to address this issue and limit the 
hours worked by sailors while deployed or in port?
    Admiral Richardson. The array of changes and improvements necessary 
will be informed by the Comprehensive Readiness Review and Secretary of 
the Navy Strategic Review. Among the changes and process improvements 
that will ultimately be put in place, we identified the need for a 
comprehensive fatigue and endurance management policy, and to implement 
fatigue recovery standards and codifying a circadian ship and watch 
rotation routine for surface ships. In May 2017, to ensure the 
analytical accuracy of Manpower Requirements Determination planning 
factors, my deputy for manpower, personnel, training and education, 
requested an independent analysis of the Navy Availability Factor to be 
conducted this fiscal year. The study will determine if the current 
components of the Navy Availability Factor remain appropriately defined 
to reflect the categories of time associated with the afloat-workweek. 
The Comprehensive Review of Recent Surface Force Incidents highlights 
that a recent analysis of the Navy Standard Workweek identified the 
fact that typical on-duty hours exceeded the planning threshold factor. 
If the current components are not appropriately defined, the study will 
recommend revised time allowances to ensure our manpower model reflects 
the most current factors, and to improve the quality of manpower 
requirements for the current and future surface fleet. The 
Comprehensive Review also noted that we recently completed a related 
study on inport workload on DDG-51 class ships, which targeted 12 
guided missile destroyers (DDGs) across five stateside homeports. The 
study captured current inport work and revealed that, overall, inport 
workload is less than at-sea for most ratings, although 10 ratings do 
have more work inport than while at sea. We are working to incorporate 
these inport requirements into updated afloat Ship Manpower Documents. 
We are also expanding our analysis to evaluate our Forward Deployed 
Naval Forces ships, those homeported overseas, and refining the inport 
model for use in future studies.
                forward deployed naval forces readiness
    34. Senator Warren. Admiral Richardson, Vice CNO Admiral Moran 
recently testified to the House Armed Services Committee that he 
wrongly assumed that ``our Forward Deployed Naval Force in Japan was 
the most proficient, well-trained, most experienced force we had, 
because they're operating all the time.'' Did you share this 
assumption?
    Admiral Richardson. It is natural to assume that there is a 
correlation between time spent operating at sea and level of 
proficiency. Sea time should equal proficiency, especially in basic 
maritime skills such as seamanship and navigation. The recent incidents 
in the Western Pacific were the result of a failure of leadership. The 
commands failed to create a culture that prioritized training, 
qualifications, and flawless execution of the basics of seamanship. At 
the Fleet level, units were not given the required and necessary time 
to do dedicated training. In an effort to immediately improve in this 
area, Navy is establishing Naval Surface Group Western Pacific as an 
administrative headquarters responsible for maintaining, training, and 
certifying Japan-based ships, focusing on these responsibilities for 
operational commanders.

    35. Senator Warren. Admiral Richardson, do you think this 
assumption was shared so widely by Navy leadership that it was baked 
into official planning?
    Admiral Richardson. It is the responsibility of the fleet commander 
to ensure assigned forces are trained and ready to execute all 
missions, across the full spectrum of operations, for which they are 
designed. This stopped happening in Seventh Fleet.
                        training certifications
    36. Senator Warren. Admiral Richardson, you noted in testimony that 
there are a variety of certifications that Navy ships undergo. In 
response to one of my questions, you testified that ``just about every 
ship has some element of their certification expired.'' Please provide 
for the record the list of certifications required for the four ships 
involved in accidents in 2017, and of those, which were expired at the 
time of the incident.
    Admiral Richardson. The following certifications were required for 
each of the four ships, with the exception of BMD for USS Lake 
Champlain and USS Antietam. These two ships do not conduct the BMD 
mission:

    <bullet>  3M--Maintenance and Material Management
    <bullet>  AT--Anti-Terrorism
    <bullet>  COMMS--Communications
    <bullet>  EXPSAF--Explosive Safety
    <bullet>  FSO-M--Fleet Support Operations Medical
    <bullet>  MOB-A--Mobility Aviation
    <bullet>  MOB-D--Mobility Damage Control
    <bullet>  MOB-E--Mobility Engineering
    <bullet>  MOB-N--Mobility Navigation
    <bullet>  MOB-S--Mobility Seamanship
    <bullet>  SAR--Search and Rescue
    <bullet>  SUPPLY--Supply
    <bullet>  AW--Air Warfare
    <bullet>  BMD--Ballistic Missile Defense
    <bullet>  CRY--Cryptology
    <bullet>  EW--Electronic Warfare
    <bullet>  INT--Intelligence
    <bullet>  SW--Surface Warfare
    <bullet>  STW--Strike Warfare
    <bullet>  VBSS--Visit, Board, Search and Seizure
    <bullet>  CMTQ--Cruise Missile Tactical Qualification
    <bullet>  NSFS--Naval Surface Fire Support
    <bullet>  USW--Undersea Warfare The following certifications were 
required for each of the four ships, with the exception of BMD for USS 
Lake Champlain and USS Antietam. These two ships do not conduct the BMD 
mission:
    <bullet>  3M--Maintenance and Material Management
    <bullet>  AT--Anti-Terrorism
    <bullet>  COMMS--Communications
    <bullet>  EXPSAF--Explosive Safety
    <bullet>  FSO-M--Fleet Support Operations Medical
    <bullet>  MOB-A--Mobility Aviation
    <bullet>  MOB-D--Mobility Damage Control
    <bullet>  MOB-E--Mobility Engineering
    <bullet>  MOB-N--Mobility Navigation
    <bullet>  MOB-S--Mobility Seamanship
    <bullet>  SAR--Search and Rescue
    <bullet>  SUPPLY--Supply
    <bullet>  AW--Air Warfare
    <bullet>  BMD--Ballistic Missile Defense
    <bullet>  CRY--Cryptology
    <bullet>  EW--Electronic Warfare
    <bullet>  INT--Intelligence
    <bullet>  SW--Surface Warfare
    <bullet>  STW--Strike Warfare
    <bullet>  VBSS--Visit, Board, Search and Seizure
    <bullet>  CMTQ--Cruise Missile Tactical Qualification
    <bullet>  NSFS--Naval Surface Fire Support
    <bullet>  USW--Undersea Warfare The four ships involved in 
accidents in 2017 exceeded re-certification periodicity in the 
following mission areas at the time of their respective incidents. USS 
Lake Champlain: CRY, EW, USW--All certification exercises 
satisfactorily completed for above mission areas. Certifications were 
held in a probationary status until manning deficiencies, due to the 
required number of personnel having the requisite schools, were met. 
USS Fitzgerald: At the time of the collision expired certifications 
included: COMMS, MOB-A, MOB-E, MOB-S, SUPPLY, AW, BMD, CRY, EW, INTEL, 
CMTQ, NSFS, SW, USW, VBSS. USS McCain: At the time of the collision 
expired certifications included: 3M, AT, FSO-M, SAR, AW, CMTQ, NSFS, 
SW, USW, VBSS. USS Antietam: At the time of the collision expired 
certifications included: COMMS, MOB-A, MOB-D, MOB-E, MOB-S, SUPPLY, AW, 
CRY, EW, INTEL, SW, USW, 3M, VBSS.
                         organizational culture
    37. Senator Warren. Admiral Richardson, in response to a question 
from Senator Reed about individual ship captains standing up and saying 
``I can't move because my ship's not ready,'' you testified that you'd 
``give that commander a handshake and a medal. That's exactly the type 
of honesty and transparency that we need to run a navy that's safe and 
effective.'' What actions does the Navy intend to take to begin 
changing the organizational culture so that it promotes and encourages 
officers to speak up when they see deficiencies in readiness?
    Admiral Richardson. Going forward the Navy will develop and 
formalize ``firebreaks'' into our force generation and employment 
systems to guard against a slide in these standards. Our culture, from 
the most junior sailor to the most senior Commander, must value 
achieving and maintaining high operational and warfighting standards of 
performance and these standards must be embedded in our equipment, 
individuals, teams and fleets. Most significantly, these standards must 
include and account for the human factors in individual and team 
performance. Ongoing and immediate actions are focused on immediate 
upgrades and training on navigation fundamentals, assessment of 
operational demands and available resources and associated schedule 
revisions, baseline readiness assessments of all Seventh Fleet cruisers 
and destroyers, consolidation of authority and accountability for 
readiness in lines of authority, implementation of circadian watch 
rhythms and baseline assessment of all watch bills and baselining the 
force generation model in the FDNF Japan.
                   organizational design and process
    38. Senator Warren. Admiral Richardson, who holds unit commanders, 
those homeported in the U.S. and overseas, accountable for readiness 
deficiencies throughout the training and deployment cycle?
    Admiral Richardson. CONUS-based ships operating under the Optimized 
Fleet Response Plan report readiness via squadron commanders to the 
Type Commander. Type Commanders (Commander Naval Surface Force Pacific, 
Commander Naval Air Force Pacific, etc) execute the Man/Train/Equip 
responsibilities under Title 10. For FDNF-J, USPACFLT has established 
the Naval Surface Group Western Pacific (NSGWP) who will report 
directly to Commander, USPACFLT in the near term. NSGWP is responsible 
for overseeing the training and certification of FDNF-J ships. This new 
organization will certify ships ``ready for tasking'' before they are 
deployed by operational commanders. NSGWP will provide a clear 
separation between force generation (training and maintenance) and 
force employment (operations).

    39. Senator Warren. Admiral Richardson, who is accountable within 
the Navy for providing the resources to improve readiness when 
deficiencies are identified?
    Admiral Richardson. I am ultimately accountable for the safe and 
effective operations of our Navy, and I am therefore responsible for 
prioritizing readiness dollars. With the $2.8B in funding approved in 
Fiscal Year 2017, we are plugging the most urgent readiness holes in 
the fleet. Our Fiscal Year 2018 request sustains the readiness 
progress, increases end strength, modernizes our current platforms, and 
purchases future platforms and capabilities needed to sustain the 
advantage over our adversaries. While we have prioritized our 
maintenance and readiness dollars, the positive effects of increased 
readiness funding will not remove this deficit overnight; it will take 
time with stable resources to sustain the upward trend.

    40. Senator Warren. Admiral Richardson, when a ship is behind its 
planned readiness, what is the Navy's process to meet the Global Force 
Management Allocation Plan and who are the decision making authorities 
in that process?
    Admiral Richardson. Ship readiness and progression through the 
Optimized Fleet Response Plan (O-FRP) leading to Global Force 
Management Allocation Plan (GFMAP) deployments are continually tracked 
and monitored by Type Commanders (Basic Phase), Operational (Carrier 
Strike Group/Amphibious Ready Group) Commanders (Integrated Phase) and 
the Fleet Commanders (CUSFF and CPF). When a unit is behind in 
projected readiness progression multiple options are reviewed, to 
include providing additional training resources, equipment, funding or 
manning to regain readiness profile. If a unit continues to lag behind 
projected readiness and will not achieve deployment certification 
standards on schedule, the Fleet Commander reviews options ranging from 
delaying or cancelling of the GFMAP deployment, extension of on-station 
ships until the unit in question can achieve appropriate readiness, or 
assigning other ships to meet the GFMAP presence requirement. I approve 
and forward the Fleet Commander's recommendation to the Joint Staff for 
CJCS and SecDef approval via the Secretary of Defense Orders Book 
(SDOB) process.

    41. Senator Warren. Admiral Richardson, who is the ultimate 
decision maker within the Navy when a ship should be delayed or non-
deployed and how is that decision communicated to the Joint Staff and 
Combatant Commanders?
    Admiral Richardson. We are taking a hard look as to how to empower 
our Commanding Officers to better-manage the workday of the crew within 
a repeatable, sustainable, and predictable framework. The Naval Surface 
Forces staff has already reviewed instructions to determine what can be 
removed or minimized to reduce administrative burdens on the fleet. 
Additionally, Commander, Naval Surface Forces, Vice Adm. Rowden, has 
mandated the implementation of circadian rhythm shipboard watch 
rotations and daily routines by December 20, 2017. Circadian rhythm 
cycles provide our sailors with a predictable watch rotation and 
protected sleep periods that recognize the human circadian rhythm. It 
should be emphasized that the utilization of both circadian rhythm 
watch bills and complimentary shipboard routines are required to 
successfully manage fatigue. Many ships in the Fleet are already on a 
circadian rhythm cycle that allows for more rest between watches and 
enables a predictable and repeatable work/watch cycle.
                               __________
               Questions Submitted by Senator Bill Nelson
                        modeling and simulation
    42. Senator Nelson. Admiral Richardson, one possible contributor to 
these incidents is training. Other services and other communities 
within the Navy utilize high-fidelity simulators for training and 
maintaining proficiency. This is one area where the Littoral Combat 
Ship program excels. The integrated simulator allows for realistic 
advanced training for the bridge and combat teams. The immersive 
virtual environment allows high-fidelity training for specific watch 
stations. While nothing can fully replace the weight of hands-on 
operation, I believe these technologies can help provide better-trained 
and more proficient sailors. Are you looking to leverage the simulators 
and training models developed for the LCS program throughout the rest 
of the fleet?
    Admiral Richardson. Simulators are critical to our training 
strategy. Beginning in 2003, and continuing through today, the Surface 
Navy has invested in the use of simulation for shiphandling and 
navigation skills at learning sites such as Surface Warfare Officer 
School (SWOS) and in all Fleet Concentration Areas (FCA). Navy 
stakeholders assess the capabilities of these simulators against new 
requirements semi-annually. LCS-specific simulators and models have 
been assessed but not leveraged for other ship training due to their 
LCS-specific solutions not reflecting the characteristics of other 
platforms. However, based on the results of the Comprehensive Review, 
Navy is upgrading the Navigation Seamanship Shiphandling Trainers 
(NSST) currently in all FCAs with integrated navigation systems, radar 
and casualty control team training capability enabling Combat 
Information Center (CIC) personnel to train with bridge watchstanders 
on equipment that accurately emulates ship systems. This effort will 
also be leveraged to improve simulators for individual training at SWOS 
and other learning sites.

                                 [all]
</pre></body></html>
